<html>
<title> - S. 314</title>
<body><pre>[Senate Hearing 105-171]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-171


 
            S. 314--FREEDOM FROM GOVERNMENT COMPETITION ACT

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON OVERSIGHT OF

                 GOVERNMENT MANAGEMENT, RESTRUCTURING,

                      AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs


                               <snowflake>


                       U.S. GOVERNMENT PRINTING OFFICE
 41-738 cc                    WASHINGTON : 1997
_______________________________________________________________________
              For sale by the U.S. Government Printing Office, 
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
SUSAN M. COLLINS, Maine              JOHN GLENN, Ohio
SAM BROWNBACK, Kansas                CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         JOSEPH I. LIEBERMAN, Connecticut
THAD COCHRAN, Mississippi            DANIEL K. AKAKA, Hawaii
DON NICKLES, Oklahoma                RICHARD J. DURBIN, Illinois
ARLEN SPECTER, Pennsylvania          ROBERT G. TORRICELLI, New Jersey
BOB SMITH, New Hampshire             MAX CLELAND, Georgia
ROBERT F. BENNETT, Utah
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                    SAM BROWNBACK, Kansas, Chairman
ARLEN SPECTER, Pennsylvania          JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              MAX CLELAND, Georgia
                        Ron Utt, Staff Director
      Laurie Rubenstein, Minority Staff Director and Chief Counsel
                      Esmeralda Amos, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Brownback............................................     1
Prepared statement:
    Senator Lieberman............................................   175

                               WITNESSES
                        Wednesday, June 18, 1997

Hon. Craig Thomas, a U.S. Senator from the State of Wyoming......     3
Hon. John J. Duncan, Jr., a Representative in Congress from the 
  State of Tennessee.............................................     5
John A. Koskinen, Deputy Director, Office of Management and 
  Budget.........................................................     9
Samuel D. Kleinman, Director, Center for Naval Analysis..........    22
Captain Burton Streicher, CEC, U.S. Navy, Director, Navy 
  Outsourcing Support Office.....................................    25
Charles S. Davis III, Chamberlain, Davis, Rutan and Valk, 
  formerly the Associate Administrator for Operations, General 
  Services Administration........................................    28
L. Nye Stevens, Director, Federal Management and Workforce 
  Issues, General Government Division, U.S. General Accounting 
  Office.........................................................    35
John N. Sturdivant, National President, American Federation of 
  Government Employees, AFL-CIO..................................    38

                     Alphabetical List of Witnesses

Davis, Charles S. III:
    Testimony....................................................    28
    Prepared statement...........................................    64
Duncan, Hon. John J., Jr.:
    Testimony....................................................     5
    Prepared statement...........................................    49
Klienman, Samuel D.:
    Testimony....................................................    22
    Prepared statement...........................................    53
Koskinen, John A.:
    Testimony....................................................     9
Stevens, L. Nye:
    Testimony....................................................    35
    Prepared statement...........................................    74
Streicher, Captain Burton:
    Testimony....................................................    25
    Prepared statement...........................................    60
Sturdivant, John N.:
    Testimony....................................................    38
    Prepared statement with attachments..........................    90
Thomas, Hon. Craig:
    Testimony....................................................     3
    Prepared statement...........................................    47

                                APPENDIX

Prepared statements of witnesses in order of appearance..........    47
Copy of bill, S. 314.............................................   177
Prepared statements from:
    American Congress on Surveying and Mapping, Bethesda, 
      Maryland...................................................   123
    International Association of Environmental Testing 
      Laboratories, Alexandria, Virginia.........................   133
    Edward O. Groff, P.E., President, American Society of Civil 
      Engineers..................................................   135
    Robert M. Tobias, National President, The National Treasury 
      Employees Union............................................   138
    Management Association for Private Photogrammetric Surveyors.   146
    Careerware, Career Development Alliance, Boulder, Colorado...   151
    Business Coalition For Fair Competition......................   159
    R. Bruce Josten, Senior Vice President of Membership and 
      Policy, U.S. Chamber of Commerce...........................   162
Letters to Senator Brownback from:
    Tony Pagliaro, Director, Government Relations, ACIL..........   170
    Gary Engebretson, President, Contract Services Association of 
      America....................................................   173
    Copy of bill, S. 314.........................................   177



          S. 314--THE FREEDOM FROM GOVERNMENT COMPETITION ACT

                              ----------                              


                        WEDNESDAY, JUNE 18, 1997

                                       U.S. Senate,
     Oversight of Government Management, Restructuring,    
                 and the District of Columbia Subcommittee,
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senators Brownback and Thomas.

            OPENING STATEMENT OF CHAIRMAN BROWNBACK

    Senator Brownback. Thank you all for coming today. I want 
to welcome you to the first hearing to investigate the 
opportunities for greater competitive contracting within the 
Federal Government as well as other privatization projects at 
the national level.
    After years of talk and debate, the Federal Government 
appears to have finally joined a worldwide trend when it 
committed itself to an aggressive privatization program during 
the 104th Congress. During those 2 years we enacted more 
privatization into law than had occurred during the previous 12 
years.
    The support for those initiatives was bipartisan and they 
were accomplished with the cooperation and support of the 
President. When finally implemented, they will lead to an 
improvement in services and savings to the taxpayer.
    While the most prominent privatization initiatives of the 
last Congress focused largely on the divestiture of assets and 
commercial-like enterprises, such as the Naval Petroleum 
Reserve and the Uranium Enrichment Corporation, many believe 
that the greatest opportunities at the Federal level involve 
the competitive contracting of thousands of routine commercial-
type services that the government provides to itself and to the 
public. Although many such services are already contracted out 
at the Federal level, a casual review of most government 
departments indicates that much more can be done, and that we 
have only scratched the surface in subjecting government's vast 
array of commercial activities to the benefits of the 
competitive marketplace.
    As several of today's panelists will testify, when 
competitive contracting has been tried at the Federal level, 
the savings have often been substantial. Department of Defense 
has averaged savings of 30 percent with its A-76 program, while 
similar results were obtained at the General Services 
Administration during its ambitious competitive contracting 
program in the early 1980's.
    Beyond these two agencies, however, not a whole lot has 
happened at the Federal level, and the legislation introduced 
by Senator Thomas and Representative Duncan is designed to 
rectify that neglect by providing strong statutory 
encouragement to the Federal establishment. Their legislation 
is also designed to address another longstanding problem, and 
one that may have worsened in recent years--the proclivity of 
Federal departments to provide commercial-type services to 
third parties in direct competition with private businesses.
    While such arrangements were permitted under limited 
circumstances by the Economy Act of 1932, new legislation 
enacted in the 103rd Congress has expanded that mandate by 
creating franchise funds within Federal departments. The law 
allows for the creation of six demonstration funds and 
encourages them to seek contracts from other departments in 
competition with the private sector.
    Recently the private sector contracting community was 
outraged to discover that the Department of Agriculture won a 
contract with the Federal Aviation Administration for data 
processing services. In addition to private companies bidding 
on the contract, the Department of Transportation also 
submitted a bid.
    These events raise fundamental questions about the proper 
role of the Federal Government and the core missions of our 
departments. Are we to believe that their core missions have 
been fully satisfied, thereby freeing up management and staff 
for entrepreneurial activities that replicate services widely 
available in the private sector? If that is the case, then 
perhaps further savings from these agencies are in order.
    I suspect that some of our witnesses today will be 
commenting on this event, and I look forward to hearing these 
views. I think we will be joined later by other Members, as 
well. We have panels that will be making presentations, and we 
will have to take a break at 11 o'clock and reconvene, I 
believe, probably for the last panel at 12:30 p.m.
    To open us up today, the first panel will be the Hon. 
Senator Craig Thomas, who is joining us, and the Hon. John 
Duncan, a Member of the U.S. House of Representatives. These 
are two gentlemen that have been leading figures in working 
with this privatization push and also the competitiveness 
within the Federal Government agencies competing with private 
sector, and taking a new look at that problem.
    Gentlemen, rather than me talking longer, I want to turn it 
over to you, and we would be happy to take your testimony and 
comments. I don't know which of you would care to go first in 
your presentation, if you have----
    Mr. Duncan. It makes no difference to me.
    Senator Brownback [continuing]. Made any distinction. 
Senator Thomas, I have you listed down on the panel first. If 
you make no distinction, I am going to go with the order on the 
list. Thanks for introducing this bill, thanks for being here, 
and we look forward to your testimony.

  TESTIMONY OF HON. CRAIG THOMAS,\1\ A U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman, and thank you for 
having this Subcommittee hearing to talk about this important 
issue. I am here to discuss a simple concept: The idea, and 
most people agree to the idea, that government ought to be as 
small and lean and efficient as possible.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Thomas appears on page 47.
---------------------------------------------------------------------------
    Most people believe that, to the extent possible, we ought 
to take advantage of private sector expertise whenever that is 
appropriate. My bill simply identifies those areas that are 
commercial in nature, that would be applicable to contracting, 
and then choose whoever does it the best, the private sector or 
the Federal Government. That is not a new idea. That is not a 
new concept.
    I am pleased to be joined by my colleague, John Duncan. He 
and I served together in the House, and I am delighted that he 
is here and pushing this issue in the U.S. House.
    For the past 40 years, Mr. Chairman, it has been the 
administrative policy of the Federal Government to rely on the 
private sector for its commercial needs. The policy was issued 
in the Eisenhower Administration, in reaction to a bill very 
similar to what we are talking about here today, and the policy 
is now found in OMB Circular A-76. Unfortunately, it is 
routinely ignored.
    Today there are an estimated 1.4 million Federal employees 
engaged in functions that are generally known as commercial 
activities, goods and services that often could be obtained 
more cost effectively from the private sector. The Federal 
Government performs many of these functions, from the mundane 
to the high tech, from laundry services to informational 
technology. Congress should question the practice of taxing 
private enterprise in order to maintain a similar, but often 
less efficient capability within the government. The bottom 
line is that government competition with the private sector 
costs taxpayers billions of dollars annually, stifles economic 
growth, kills private sector jobs, erodes the tax base and 
siphons off resources, as the Chairman mentioned, for the core 
mission of the government.
    The primary point I want to make today is that there needs 
to be some statutory provisions to enforce the notion and 
indeed the policy that has been in existence for over 40 years. 
To inject competition into government monopolies, Congressman 
Duncan and I have introduced the Freedom From Government 
Competition Act, legislation based on the premise that the 
government should not unfairly compete with its citizens.
    It codifies the 40-year-old policy that the government 
should rely on the private sector whenever possible for its 
commercial needs, giving some preference to the private sector. 
Of course there are exceptions to the policy: Functions that 
are inherently governmental; National security; if the 
government can provide a better value, if the private sector 
cannot provide the goods and services.
    I recall last year when I testified before this 
Subcommittee, some had the notion, ``Well, you want to do away 
with the government and have the private sector do 
everything.'' Obviously that is not the case, but there are 
many commercial functions which seem to be more appropriate for 
private sector performance.
    This bill also establishes a process by which OMB will 
identify government functions that are commercial in nature and 
implement a plan to outsource those activities to the private 
sector. It also establishes an Office of Commercial Activities 
within OMB to implement the bill.
    The problem partly has been that the fox has been in charge 
of the henhouse. I understand why that is--there is no real 
incentive for an agency head to outsource, and so it doesn't 
happen.
    Federal agencies and the private sector will use the new 
office as a resource to facilitate transition to this system, 
and that is what we need, is to make a transition. The bill 
also establishes provisions to help the transition of Federal 
employees into the private sector.
    Last year, as I mentioned, the Governmental Affairs 
Committee held a hearing on this bill. Based on the input of 
Senators Stevens and Glenn, OMB, GAO, private industry and 
labor unions, we have hopefully made this a better bill.
    For example, we added a ``best value comparison'' which 
will allow Federal employees and the private sector to compete 
on a level playing field, based on several factors. One is a 
fair comparison of cost, which is a very important component; 
qualifications; and past performance. We've also added some 
``soft landing'' provisions for Federal employees. In fact, 90 
to 95 percent of Federal employees who are displaced move on 
into the private sector, retire, or get another government job, 
but we recognize that that is an important function.
    Testimony later today will unequivocally demonstrate that 
outsourcing non-core functions works. It works in the private 
sector, it works at the State and local level, it works 
internationally, and it can work for the Federal Government. 
American taxpayers can reap the benefits not only from budget 
savings but also from government doing a better job. In fact, 
several studies have shown that we could save up to 30 percent 
by outsourcing, saving billions of dollars annually.
    Mr. Chairman, we talk a lot about making changes around 
here, fundamental changes. We talk about reinventing government 
and see, frankly, relatively little change. I think this is an 
opportunity for us to make some fundamental reform. So I do 
appreciate the opportunity to be here.
    In summary, outsourcing and privatization of commercial 
functions work. What we need is a statutory basis to make it 
work for the Federal Government. It creates jobs. It helps 
small business. I think I mentioned that in the last several 
meetings of the White House Conference on Small Business, this 
has been one of the issues that has been at the top of the 
agenda, to stop unfair government competition with the private 
sector.
    So I thank you again, and certainly would look forward to 
answering any questions you might have.
    Senator Brownback. Thank you, Senator.
    Representative Duncan, thank you very much for coming 
across the Capitol and joining us here today.
    Mr. Duncan. Thank you.
    Senator Brownback. I enjoyed serving with you in Congress, 
and look forward to your comments.

 TESTIMONY OF HON. JOHN J. DUNCAN, JR.,\1\ A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Duncan. Mr. Chairman, thank you very, very much. I 
would simply like to thank you and the Members of the 
Subcommittee for holding this hearing today. I would also like 
to thank Senator Thomas for his very hard work on this issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Duncan appears on page 49.
---------------------------------------------------------------------------
    I have a full statement I would like to submit for the 
record. You and Senator Thomas have made outstanding statements 
and have adequately described this legislation.
    As you know, in the House, I have introduced companion 
legislation to Senator Thomas's S. 317, the Freedom From 
Government Competition Act. This legislation has strong 
bipartisan support, with 46 cosponsors in the House and 13 
cosponsors in the Senate.
    It has been endorsed by a number of organizations, 
including the U.S. Chamber of Commerce, the National Federation 
of Independent Business, the Business Coalition for Fair 
Competition, the Contract Services Association, and at least 30 
other major organizations. I have attached a list of these 
associations to my statement.
    In addition, as Senator Thomas just mentioned, the last 
time the White House Conference on Small Business met, it 
listed unfair competition as its No. 1 concern. I think this 
legislation that I have introduced with Senator Thomas takes a 
very modest first step in helping alleviate this problem.
    It does not require the Federal Government to contract 
everything out. We recognize that there are things that 
government does best, and that there are functions that only 
the government should do. This bill would not require agencies 
to contract out functions that are related to national security 
or those things that are related to the core mission of a 
particular agency.
    It requires only that Federal agencies look at those things 
they do which are commercial in nature. As Senator Thomas 
mentioned, the CBO has estimated that 1.4 million Federal 
employees presently perform activities that are commercial in 
nature. If these commercial goods and services can be obtained 
from the private sector in a more efficient and cost-effective 
manner, then, and only then, would the agency be required to 
contract out that work.
    Mr. Chairman, the history of government competition is a 
long one. It was described by President Bush's Administrator of 
the Office of Procurement Policy, Dr. Allan Burman, in 1990 
when he testified before the House Post Office and Civil 
Service Committee he stated: ``As far back as 1932, a Special 
Committee of the House of Representatives expressed concern 
over the extent to which the government engaged in activities 
that might be more appropriately performed by the private 
sector.''
    Since the Eisenhower Administration in 1955, it has been 
official U.S. policy that ``the Federal Government will not 
start or carry on any commercial activity to provide a service 
or product for its own use if such product or service can be 
procured from private enterprise through ordinary business 
channels.''
    However, the problem is, as Senator Thomas has pointed out, 
we have really simply paid lip service to this policy instead 
of giving it practical effect. And I would say basically that 
the reason for this bill is that it is hard enough for small 
businesses to survive in this country today against ordinary 
competition, but when they have to take on the Federal 
Government to boot, it becomes an extremely difficult and 
sometimes an impossible task.
    Every administration, Republican and Democrat, for the past 
40 years has endorsed this policy, but unfortunately it has 
never really been implemented. A report released by the 
Commission on the Roles and Missions of the Armed Forces, known 
as the White Commission, stated that ``at least 250,000 
civilian employees of the Department of Defense are performing 
commercial-type activities that do not need to be performed by 
government personnel.''
    Numerous organizations have conducted studies on 
contracting out and have found that the Federal Government 
could save a huge amount of money by relying on the private 
sector. In fact, just last year the Defense Science Board found 
that $30 billion could be saved annually if the Department of 
Defense did more contracting out.
    Mr. Chairman, in a free-market society businesses must 
compete with each other to provide the best possible product or 
service in a cost-efficient way. However, we only have one 
government, and it has no competition. Therefore, when it 
provides goods or services, it has no incentive to do so in a 
cost-effective manner. I believe the government should only 
provide those goods or services which private industry cannot 
provide.
    I think all of us would agree that the American public 
wants the Federal Government to improve the services it 
provides without increasing taxes. I also think we would agree 
that almost everyone would like us to reduce the size of the 
Federal Government. This bill, if enacted, would help do that 
in a very efficient and cost-effective way.
    I would like to close, Mr. Chairman, by quoting from a book 
that was written by a prominent Democratic Member of the House 
many years ago. He said this: ``He says that that thin line 
wavering between liberty and despotism is surely crossed when 
government ceases to regulate and begins to manage, ceases to 
be an impartial umpire in the economic game and becomes a 
player; when government competes with its citizens in the 
production of wealth; when government becomes the untaxed donor 
of property not necessary for strictly governmental 
functions.''
    I think that pretty much sums up the reasons for mine and 
Senator Thomas's bill. I think it is a modest first step toward 
something that has been needed to be done for a long, long 
time. I appreciate your very fine statement at the start of 
this hearing, and I appreciate Senator Thomas for all he has 
done in regard to this. Thank you very much.
    Senator Brownback. Thank you both for coming forward and 
testifying. Just a couple of questions, if I could, and I think 
you probably have the information there. Maybe it is in the 
written statement.
    Senator Thomas, you cited a 30 percent savings as a 
potential figure out there in some areas. Do you have any 
dollar figures of what outside studies have said that we could 
potentially save by contracting out services?
    Senator Thomas. I think the figure that I mentioned was a 
$30 billion annual savings in the Defense Department. Some say, 
well, that is inflated. Say it is inflated; say it is only $20 
billion a year. But there are obviously substantial savings, 
and I think CBO is doing a study now that it hasn't finished 
yet, that actually will come up with some figures which should 
be available to us soon.
    Mr. Duncan. I might say in that regard, Senator, that the 
Coalition for Fair Competition has made an estimate of $40 
billion government-wide, and they tell us that that is a very 
low-ball, conservative estimate. If the White Commission 
estimates that $30 billion could be saved in the----
    Senator Thomas. Department of Defense.
    Mr. Duncan [continuing]. Defense Department alone, then the 
$40 billion I think is a very conservative figure.
    Senator Brownback. Let me ask you both, this is something 
that the private sector has engaged in broadly over the last 10 
to 15 years, where they are contracting out everything. I mean, 
whether it is data processing or food services, anything that 
is outside of the core mission they seem to be willing to look 
at rapidly and say, ``Can we contract this out?''
    And they do it, and the incentive for them is clear. They 
save their money. They are able to put that towards the bottom 
line within the corporate profits or within other investments 
that are in the core function of the company.
    Do we just not have the right incentives in the Federal 
Government to push this, and do you think we are going to get 
at those incentives with the bill that you are putting forward 
to stimulate this to happen? I mean, this needs to happen. The 
figures are there. It is occurring in the private sector in 
large organizations, but it is not occurring near to the 
necessary speed or amount in the Federal Government.
    Mr. Duncan. Well, I think one of the reasons that it has 
not been carried out is because we haven't had legislation like 
Senator Thomas and I have introduced, and this bill would set 
up a specific office with the primary responsibility within OMB 
to make sure that these procedures and policies are carried 
out.
    It is more than just contracting out. There are many ways 
every day that government agencies are competing with small 
businesses, and that is really what this bill is more aimed at. 
I mean, even just yesterday I had a call from a meat-packing 
company in Knoxville, and the Tennessee Valley Authority was 
running an ad in conjunction with another meat company and was 
doing more or less free advertising for this one company. You 
have got daily examples like that happening throughout the 
country.
    I think that if this bill could be enacted, so it would set 
up a specific office to carry this out, that would provide some 
of the incentive that you are talking about, and we would see 
real action from this for the first time. It has just been 
words so far, but this would be action.
    Senator Thomas. Mr. Chairman, I think when you look at the 
whole issue, it is not some evil scheme on the part of the 
Federal Government or federal employees.
    Say you are in charge of a forest, and you say, ``Well, why 
don't we contract out the management of the campgrounds?'' 
However, you can have more control over the campgrounds if you 
don't. You are accustomed to doing it. It is a habit not to do 
it. There is no real incentive to do it. In the private sector, 
if you do it, maybe you make some more profit or you get a 
bonus. That is not true in the government.
    I think the Federal Government is different. The success in 
contracting we ought to do, but we are going to have to do it 
in a little different way because the incentives that are there 
in the private sector are not available, it seems to me, in 
this structure. Part of it is habit, part of it is lack of 
incentive.
    Furthermore, it seems to me if we really want to enjoy the 
benefits of outsouring, you have to change the structure of 
Federal agencies. I happen to be chairman of the Parks 
Subcommittee, and we have got some real problems in our 
national parks. They have an $8 billion backlog in maintenance 
needs, and we are going to have to find some new ways to do 
things. I think it is an excellent example for this bill. You 
have park professionals whose real training and background is 
managing the resource, but they spend most of their time doing 
the commercial functions. That's the problem. We need to keep 
these people doing what they are trained to do.
    I guess what I am leading up to saying is if you want to 
outsource these functions, efficiently, then the agency has to 
convert a little bit to be better at putting out the contract, 
overseeing the contracts to make sure they are done right, 
change their activity a little bit, doing it to be overseers of 
contracts, the same way you do it in the private sector.
    I think we have to recognize that it doesn't happen as 
easily in the government, but I think once accomplished, the 
people then can divert themselves back to what they really want 
to do rather than the commercial things that they end up doing, 
and there would be a good deal of support for this concept.
    Senator Brownback. My question is born out of some 
experience when I ran a little State agency and we privatized 
several functions, and the only thing we got in the process was 
grief. Because you are cutting back on employees of the agency, 
and so that is not exactly enjoyable within the culture of the 
agency. You didn't get anything back in return. I mean, I 
wasn't able to give bonuses out to people. I wasn't creating 
opportunities internally.
    And I was losing some control that I had as long as this 
was in my purview. Also, then, there is the common issue of a 
power base. I used to have X number of employees; now I have X 
minus 50 employees. All the incentives went the other way and 
said, ``Well, why would I do this? Plus, if it doesn't work, 
I'm going to get hammered in this process.''
    So I have wondered if in looking at these things, I think 
the office is a good idea, but is there a way to incentivize 
the public sector? Can you give bonuses for savings, the way 
you give bonuses for increased earnings? Have you looked at--
and I don't know if there is, that is why I am asking you 
gentlemen--is there a way of changing that?
    Senator Thomas. Have you ever tried politically to give a 
bonus in a government deal? It is hard, you know.
    Senator Brownback. Well, that is why I am asking you.
    Senator Thomas. It is hard, but we do need to find some 
more of an incentive to do it, because the concept will work if 
you want to make it work.
    But you have just described exactly--and that is why I say 
it is not a Machiavellian scheme on the part of government 
managers to not do it. The incentives are to stay where you 
are. The incentives are not to take a risk. The incentives are 
to build up the number of people in your agency. That is the 
way it is, so----
    Mr. Duncan. Senator, for years I have thought that we 
should at least try on an experimental basis with some agency, 
and tell this particular agency that if they can save X amount 
of dollars in the course of a year off their budget, that half 
of it would go to the employees in the form of a bonus and half 
of it would go back to the Treasury to apply toward the debt.
    I really think that if we could try that on an experimental 
basis, I think something like that would work, and we might be 
able to work it in conjunction with this bill. We could 
change--we could make some additions to this bill to provide 
something like that, possibly.
    Senator Brownback. We may look at doing that with you if we 
could structure it right, because there are big political 
pitfalls, too, which is what Senator Thomas identified, and I 
am cognizant of those, too.
    Mr. Duncan. Right.
    Senator Brownback. Thank you gentlemen both for taking your 
time and your interest and your focus on this. It is really 
appreciated.
    Mr. Duncan. Thank you.
    Senator Thomas. Thank you very much.
    Senator Brownback. I call up the next panel, which is the 
Deputy Director of the Office of Management and Budget, John A. 
Kosiken. I don't know if I pronounced your name correctly--did 
I get that right?
    Mr. Koskinen. Koskinen.
    Senator Brownback. Mr. Koskinen, I appreciate very much 
your willingness to join us today. As you could gather from the 
last panel, we want to be as informal and free-flowing as 
possible. OMB has a lot of interest in this particular issue, 
and I think has an extensive track record of looking at it.
    So with that, appreciate your testimony. You can summarize 
if you would like, and handle it however you would like to. 
Thanks for coming.

   TESTIMONY OF JOHN A. KOSKINEN, DEPUTY DIRECTOR, OFFICE OF 
                     MANAGEMENT AND BUDGET

    Mr. Koskinen. Thank you, Mr. Chairman. I am happy to be 
here today and have the opportunity to discuss with you the 
proposed Freedom from Government Competition Act. As you 
suggest, I will submit my full statement for the record and 
summarize it here.
    Senator Brownback. Without objection.
    Mr. Koskinen. In light of our current budgetary 
restrictions and our move to implement the balanced budget 
agreement, all of us are anxious to ensure that the government 
operates as efficiently as possible. Our guiding principle for 
determining when the government engages in commercial 
activities and when it considers outsourcing, privatization, or 
competition should be to ensure, as you all have just been 
discussing, that we get the best deal for the American 
taxpayer.
    We need to bear in mind that the Federal Government has 
always obtained a vast array of products and services from the 
private sector and expects to continue that policy. In fiscal 
year 1996, for example, we spent over $114 billion on 
commercial support service contracts--contracts with the 
private sector.
    In addition to the substantial volume of contracting out 
already taking place, we are currently engaged in the largest 
effort ever undertaken by the Federal Government to compete our 
in-house commercial support workload with the private sector. 
Over 40,000 full time equivalent positions are currently under 
OMB Circular A-76 review in the Defense Department alone.
    Furthermore, pursuant to the implementation of the 
Government Performance and Results Act, we are holding managers 
more accountable for results. We are asking that managers 
justify their decisions to perform work by in-house, contract, 
or interservice support agreement through full and open 
competitions designed to achieve the best value and lowest cost 
to the taxpayer.
    To achieve this new level of accountability, we are 
encouraging a broader range of competitions, and we favor 
encouraging new organizations to enter those competitions. As 
you noted, Congress authorized us to develop franchise fund 
pilots and to expand the competitive environment that exists 
for reimbursable activities government-wide.
    The private sector is now being invited to participate in 
new markets and new levels of commercial workload that had 
previously been the province of simple cross-servicing 
arrangements between agencies. And I would note that under the 
revised OMB Circular A-76, an expanded cross-servicing activity 
by any franchise funds must be cost competitive with the 
private sector.
    Finally, we do not believe that these competitions should 
be one-time events. To ensure that the taxpayer continues to 
get the best deal, we need to periodically re-examine our 
outsourcing, cross-servicing, and in-house performance 
decisions.
    If the function was kept in-house, is the public sector 
continuing to provide the best deal? If the private sector is 
performing the service, is the current offeror the best one for 
the job, or has the government developed a competitive 
approach? Competition should be used on a regular basis to 
review the situation and to determine who can best provide 
required services.
    Ultimately, our goal is to restore the public's faith in 
government by managing our resources more effectively, and by 
giving citizens and taxpayers more value for their dollar. By 
issuing the March 1996 OMB Circular A-76 Revised Supplemental 
Handbook, we have established a streamlined approach to permit 
full and open competition--on a level playing field--to 
determine who should do the work.
    In this context, it is important to remember that, when 
faced with competition, Federal employees have been extremely 
cost-competitive. Approximately 50 percent of the competitions 
conducted to date have been won by the government. At the same 
time, the private sector has won about 50 percent of the 
competitions, which is a strong indication that this process 
works.
    While we are encouraging agencies to compete to provide 
services to other agencies, as Congress contemplated with the 
establishment of the franchise fund pilots, we also agree that 
unfair government competition, to the extent that it exists, 
should be identified and eliminated.
    A clear distinction needs to be drawn, however, between the 
government's involvement in private sector or even State and 
local markets, and the need to manage our own resources on a 
cost-effective basis. A substantial statutory and policy 
framework already exists that carefully limits the Federal 
Government's involvement in the private economy and in State 
and local service markets. We continue to support those 
policies.
    The possibility of legislation in this area needs to be 
viewed against ongoing reinvention efforts. Our concern with 
the legislative proposal embodied in S. 314 is that it mandates 
a particular approach to this situation, rather than letting 
customer agencies themselves examine their current in-house to 
contract mix, including the use of reimbursable support 
agreements with other agencies, to make the best management 
decision.
    If we have a need for legislation, it is to remove existing 
barriers to competition. S. 314, for example, does not 
specifically repeal the restrictions imposed on the Defense 
Department in 10 U.S.C., sections 2461 to 2469.
    Finally, we are concerned that S. 314 will result in a 
significant new level of litigation, caused by the conversion 
of what are essentially management implementation decisions 
into a statutory obligation that would be subject to judicial 
review.
    The preamble to S. 314 states that the government's current 
mix of in-house and contract resources is ``unacceptably 
high;'' that the existence of reimbursable arrangements between 
agencies is inappropriate; that such consolidations divert the 
government's attention from its core mission; that small 
business is being hurt; and that current laws and regulations 
have proven ineffective in controlling govenrment's growth. 
While individual anecdotes can be offered to support these 
findings, there is no quantitative data to establish or support 
them.
    In fact, as I noted earlier, the amount of outsourcing is 
now $114 billion a year and it has increased moderately over 
the last 4 years, as the government has downsized by 300,000 
employees. So if anything, the ratio of the amount of work 
being done outside the government to the amount being done 
inside has increased.
    S. 314 requires that certain information be made available 
to the public, including the development of inventories of 
commercial activities performed by the agencies. The March 1996 
A-76 Revised Supplemental Handbook already requires that 
agencies conduct annual inventories of their commercial 
activities performed with in-house resources. The Federal 
Procurement Data System provides information regarding which 
work is now performed by contract. All of this information is 
available to the public upon request, and private sector 
companies are free to make offers to perform commercial work.
    In contrast, and of major concern to us, S. 314 suggests 
that the private sector and employee unions may have a legal 
right to review these inventories and seek judicial review of 
agency determinations with respect to whether the function is 
inherently governmental, commercial, or has otherwise met the 
cost-effectiveness standards of the statute. Having these 
issues subjected to legal challenge will delay, not expedite, 
competition and contracting out.
    We also should not view outsourcing narrowly. For example, 
the Treasury Department, the Internal Revenue Service and the 
Social Security Administration, along with the Labor 
Department, recently signed an agreement to collaborate on a 
streamlined wage and income reporting system. Agencies also 
cooperated in responding to the Oklahoma bombing, the crash of 
TWA Flight 800, Hurricane Hugo and other disasters.
    These joint efforts include the provision of services that 
are generally considered commercial in nature and, in many 
cases, the work is being done directly by agency employees. In 
other cases, it is being accomplished through reimbursable 
agreements, contractors, or a mix of in-house and contract 
employees. If passed in its present form, this legislation will 
put in place additional legal and other administrative 
obstacles to our ability to respond to these kinds of 
situations.
    Ultimately, the question is whether S. 314 provides 
anything better than that already provided by Circular A-76 and 
its Revised Supplemental Handbook. These documents provide a 
clear preference for private sector performance of new and 
expanded work requirements; require agencies to develop 
inventories of commercial activities; establish prohibitions 
against the government's entering into non-Federal support 
markets; restrict the development of new or expanded 
interagency support agreements to those justified by full and 
open competition; and provide for independent administrative 
oversight within the agencies. We believe that this process not 
only works, but is beginning to encourage real competition for 
government work.
    In sum, it is full and open competition that has made the 
American economy the envy of the world. We support the 
provision of government services by those best able to do so, 
whether in the private sector or within the government.
    Rather than opening up existing markets or enhancing the 
dynamics of competition, S. 314 may restrict the number of 
competitors. Trying to put existing agencies, franchise funds, 
and cross-servicing arrangements out of the market is likely to 
result in the enactment of many more agency-specific 
prohibitions against outsourcing and competition, such as those 
that now apply to the Defense Department.
    The bill will also spawn a whole new level of compliance 
litigation, resulting in higher costs to the taxpayer.
    Mr. Chairman, that concludes my summary. I would be happy 
to address any questions that you or Senator Thomas might have.
    Senator Brownback. Thank you very much for your testimony, 
and I would like to ask unanimous consent to allow Senator 
Thomas to join in and sit in on the Subcommittee today. I am 
certainly not going to object.
    Mr. Koskinen. So it is unanimous.
    Senator Brownback. I appreciate your willingness to join us 
and sit in on this important topic, and thank you as well for 
your comments.
    In looking at this overall Federal effort to privatize, I 
understand that you have some real questions with the bill. At 
the same time, I don't think you would say that we are near the 
level of contracting out of services that we ought to be within 
the Federal Government. Would that be a correct statement, or 
do you think we are where we ought to be?
    Mr. Koskinen. I don't think there is a normative number 
that is an answer to that. As I noted in my testimony, we 
believe that issue continues to need examination on a service-
by-service or contract-by-contract basis.
    Our past experience has been that, when these issues are 
confronted, they are sort of once-in-a-lifetime decisions. 
There is either a decision to contract out or a decision to 
keep an issue in-house, and then no one revisits that issue. We 
think that across the board, we need to continue to review 
whether the entity providing the service now is doing it most 
effectively.
    Senator Brownback. Do you have any nominees, then, now? I 
am not getting a real clear answer from you whether you think 
we are really at about the right level of contracting out at 
the $114 billion figure. Are you thinking that there are other 
opportunities that are going to come up?
    Mr. Koskinen. I think there are opportunities now. And I 
think there will continue to be opportunities. I think our goal 
is to, in fact, continue to challenge every commercial service 
in terms of whether it is being done by the most effective 
provider.
    We have talked a lot about contracting out. Some of the 
government organizations reviewed by GAO discovered that after 
contracting out over a period of time, they contracted some of 
those same services back in. So again, these should not be 
viewed as once-in-a-lifetime decisions, but as ongoing reviews 
of the competitive nature of service providing.
    Senator Brownback. Do you have any nominees that should be 
contracted out, activities that are currently being done by the 
Federal Government?
    Mr. Koskinen. As I noted, I think the Defense Department is 
trying to overcome a set of arbitrary statutory restraints on 
their ability to contract out. And, as I said, we have 
supported allowing the Defense Department to make decisions on 
the merits of whether to contract in or contract out certain 
functions. There are now statutory prohibitions against that.
    Senator Brownback. So yours would be exclusively in the 
Department of Defense. Is that where you are presently focused?
    Mr. Koskinen. In terms of whether there are statutory 
prohibitions, right. We think----
    Senator Brownback. No, on contracting out, what I am asking 
you is whether you have any nominees you think ought to be 
contracted out presently? And what I am getting from you is 
that you think there may be, within the Department of Defense, 
if we could remove some of the statutory barriers.
    Mr. Koskinen. We would do that, but again, part of my 
concern is that there is a presumption that the issue is 
contracting out. I think there are nominees--across the board--
for continual competition to find out how we get services 
provided best--whether it is contracting out, contracting in, 
or contracting across agency lines.
    So I don't think you can say, ``Here is a target and it 
should be contracted out as a matter of fact.'' I appreciate 
the changes the Senator has made in his legislation to ensure 
that the issue be decided on whether one agency or entity is 
the low-cost provider or the best-cost provider of that 
service.
    So I don't think there are targets where you can say, 
``This automatically ought to be contracted out.'' There are 
clearly functions across the government where we ought to have 
people continue to review who can provide those services most 
effectively.
    Senator Brownback. Well, let me give you a nominee, then.
    Mr. Koskinen. All right.
    Senator Brownback. Let's see how you would react. What 
about on the NOAA fleet? We have IG studies, GAO studies saying 
that these ships should be sold, and that we should contract 
for these services. Have you looked at any of that within OMB?
    Mr. Koskinen. Yes. We have encouraged the department to 
take a strong look at the privatization of that fleet. As you 
noted, over the last 2 or 3 years we have looked very hard and 
pushed very hard, on a number of fronts, for the privatization 
and actual sale of government entities and functions. So that 
clearly is a target of opportunity that needs to be analyzed.
    Senator Brownback. Good answer. That is one that we have 
been looking at.
    Let me ask one more question and then pass to Senator 
Thomas, because I don't want to take all the time here.
    I note your opposition to various sections of the bill, and 
I will be interested to see what you think we ought to be doing 
about the Defense Department so that we can open it up to 
further contracting, because certainly that would be something 
that would seem a good opportunity to me. Do we have just the 
wrong incentives in place in the Federal Government to 
encourage privatizing out?
    I think you were here earlier when I made my brief 
statement about running a small agency, and how I noted that 
all the incentives I had as a public sector employee encouraged 
me to leave the situation the way it was. I received no 
internal support for doing this. I received no monetary 
incentives to give the employees of the agency for doing this, 
and if it didn't work, I was going to get hammered in the 
press. Aren't all the incentives the wrong way?
    Mr. Koskinen. Historically, that has been a problem. One of 
the things that has changed in the present is that budgetary 
resources are now increasingly constrained, and will be over 
the next 4 or 5 years as we work to achieve a balanced budget 
by the year 2002.
    So in the past this was, in many ways, a more philosophical 
argument about where work could be done best. There was not an 
overriding incentive on agencies to, in fact, be constrained by 
their resources. Now, no matter what happens in the 
appropriations process this year, no program will be receiving 
the amount of money that it has requested or thinks it could 
use effectively.
    Therefore, virtually all of the agencies, with a few 
exceptions, are now in a position where--if they want to expand 
the reach or impact of their programs--they are going to have 
to perform more efficiently with the dollars they have. And we 
are working with them, through their strategic planning 
processes and other avenues, to take a hard look not only at 
contracting out, but at reengineering their workforce and the 
way they do their work. In many cases, we're encouraging them 
to look at downsizing without necessarily having work done 
somewhere else, downsizing by stopping some work.
    The other thing that is happening, and I encourage you to 
support it, is the implementation of the Government Performance 
and Results Act. The act will enable us to hold managers 
accountable for the effectiveness of their programs. What do 
managers achieve with the dollars we give them? And, how much 
does it cost?
    Again, I think the proper discussion is, ``All right, what 
were your goals? What have you actually accomplished with the 
resources we have given you, and how much more effective could 
you be in a context where resources are limited?''
    So, I think we are beginning to provide agencies with 
fairly significant incentives for becoming more efficient. And 
I think that as we look at the pilot programs with franchise 
funds, we are going to learn a lot about whether agencies are 
encouraging each other to take a hard look at cross-servicing 
as we go forward.
    But let me address your final point, and I think it is an 
interesting one, regarding agency-generated savings going off 
into the general fund. Even if you could use that money to save 
more money, the long-held theory--at all levels of government--
was that any savings went to either reduce the deficit or into 
the general treasury, and the mayor, the governor, or the 
President or Congress reallocated those funds. That is not much 
of an incentive.
    We have increasingly been trying to encourage gain-sharing. 
Roughly 2 years ago, Congress passed the Debt Collection 
Improvement Act, which--for the first time--said that for the 
amount of increased debt collection, you could keep 5 percent 
in the debt collection program.
    In our 1998 budget discussions and reviews with the 
agencies, we have said, ``Here are your targets. Here is the 
amount of resources you can have. If by procurement reform, if 
by contracting out, if by doing your services in another way 
you can save money under those numbers, those funds can be 
redeployed to increase the impact of your program.''
    And it is the first time we have really approached it that 
way. So we are trying to give program managers and agency 
managers the incentive to say, ``Here is our balanced budget 
glide path. Here are the resources that your agency is going to 
have. If you can be more effective with those resources--
however you do that--and provide more funds for your programs, 
we won't take that money away.''
    We won't say, ``All right, if you can save 5 percent 
through procurement reform, we'll take the 5 percent and spend 
it somewhere else.'' We're trying to provide agencies with a 
tool kit for managing in a balanced budget world. We want to 
say, ``Here is a set of reinvention opportunities, a way to 
operate more efficiently. To the extent you can take advantage 
of these opportunities, the funds you generate will be 
available for you, for the use of your programs.''
    Now it doesn't get down to the issue of personal 
incentives, where we could actually provide a bonus directly to 
an employee. But as we go forward, I think we need to look at 
our performance appraisal system and our performance 
compensation system; although my experience has been, within 
the private sector and in the government, that performance 
bonuses--particularly in the government--are the last incentive 
that people are looking for.
    Most people have come to the government because they 
believe in the mission of their agency, and because they 
believe in government and public service. My experience has 
been that what energizes them most is (a) feeling that they are 
doing meaningful work and doing it more effectively and, (b) 
having more resources for the achievement of agency missions 
and goals.
    Senator Brownback. And, (c) they wouldn't mind a little 
more money in their pocket, too. [Laughter.]
    Mr. Koskinen. They wouldn't mind a little more money. 
Nobody ever turned it down.
    Senator Brownback. It has been my experience in that 
system, as well. Senator Thomas.
    Senator Thomas. Thank you very much. Thank you for your 
enthusiasm for our bill. [Laughter.]
    We were in the same situation last year, as a matter of 
fact. I asked you last year about section 3515 of the 
Government Management Reform Act. I still haven't received an 
answer, so I am going to ask again. It requires you to collect 
from each Federal agency information on the accounts of each 
agency which performs substantial commercial operations; to do 
it in 1995 and to do it again in 1996. Have you completed that?
    Mr. Koskinen. We have just about completed it. We have 
gone----
    Senator Thomas. You have not completed it?
    Mr. Koskinen. Well, I don't know today what the status is, 
but the information was due to us before the date of this 
hearing, actually some time ago.
    Senator Thomas. It was due to you in 1995, wasn't it?
    Mr. Koskinen. Yes. The statute with that requirement came 
late in 1995. As I noted last year, we had sent out a request 
to the agencies, and that information is coming and will be 
available. And as soon as it is completed, I will make sure 
that----
    Senator Thomas. You will let me know, won't you? You see, 
you are just 2 years late.
    Mr. Koskinen. I will let you know.
    Senator Thomas. It is so easy to talk about how you support 
reform, but it doesn't happen. You said Federal employees have 
been reduced by 300,000. How many of those came from base 
closures, Defense Department downsizing, and the savings and 
loan debacle?
    Mr. Koskinen. The last time I looked, about 60 percent were 
from the Defense Department and 40 percent were from the non-
defense agencies.
    Senator Thomas. So when we are talking about reinventing 
government, that really hasn't been the reason that we have 
fewer Federal employees.
    Mr. Koskinen. One hundred and twenty thousand people from 
the non-defense agencies is a lot of people.
    Senator Thomas. How many of those came from savings and 
loan completion?
    Mr. Koskinen. A relatively modest percentage of those.
    Senator Thomas. OK.
    Mr. Koskinen. I would be happy to send you those numbers as 
well, Senator.
    Senator Thomas. I wish you would, please.
    You talked about judicial review. Certainly I don't want 
any more litigation than possible, than necessary, but if you 
are going to hold a competition, then do you object to the 
private sector having some appeal?
    Mr. Koskinen. No. My only point about that is, the moment 
we open up all of these decisions, the private sector will 
appeal. The Public Employee----
    Senator Thomas. Well, shouldn't they have a right to 
appeal?
    Mr. Koskinen. You can do that. Right now, they have a right 
to appeal in an administrative process. If you want to give the 
employee unions and the private sector the right to take every 
one of these decisions into court, you can do that. I am in 
favor of----
    Senator Thomas. Now, that isn't the way it works, and you 
know that.
    Mr. Koskinen. That is the way it works.
    Senator Thomas. There are lots of statutory provisions that 
have judicial review now, and you are not swamped. I just don't 
understand your argument.
    Mr. Koskinen. I would say----
    Senator Thomas. You don't need to answer it because I know 
your answer.
    Mr. Koskinen. Well, I would like to answer you. Our 
experience in procurement reform, for instance, was that given 
rights for statutory appeal, we clogged up the procurement 
process with a lot of appeals. When we did the Information 
Technology Management Reform Act, we abolished the General 
Service Administration's Board of Contract Appeals and moved 
appeals back to GAO. Now, the process is running much more 
smoothly.
    Senator Thomas. How many times have you gone back after an 
award and done the A-76 competition again? You said it 
shouldn't just be done once, you do it again. Do you go back 
and do it again?
    Mr. Koskinen. I don't know, but one of our concerns has 
been that we don't.
    Senator Thomas. Mine, too. When are you going to do that? 
You indicated that you ought not to just make a one-time 
decision and then not go back and do it again.
    Mr. Koskinen. That's right. What we are doing is--and I 
think this is one of the things franchise funds and increased 
interest in the private sector will do--to continue to provide 
agencies with people interested in challenging the way the work 
is presently done.
    We don't view it as our responsibility to monitor the 
system across the whole government. As I said to Senator 
Brownback, our goal is basically to harness the present 
incentives that are building in terms of budgetary constraints 
and to focus the agencies' attention on the wide range of 
options we provided them, for lowering their costs. Certainly, 
changing the way agencies do the work and changing who does the 
work is one of the significant ways in which agencies can 
reduce costs.
    Senator Thomas. I guess I just get a little frustrated 
that, whenever we seek to do something that might have some 
fundamental impact on how the Federal Government works, you 
come up with all of these reasons why we can't do it. Or else 
you are doing it, but we don't see the results. How many A-76 
cost comparisons were conducted in 1996?
    Mr. Koskinen. I don't know the number. I can get you that 
information. As I said, we have 40,000 FTEs under review right 
now in the Defense Department.
    Senator Thomas. But you don't have any idea how many A-76--
--
    Mr. Koskinen. I don't carry that information----
    Senator Thomas. But don't you have any notion, any idea? Is 
it something that is done frequently? Is it done a lot? Is it 
done for lots of activities or is it something that is seldom 
done?
    Mr. Koskinen. At this point, I don't know the answer to 
that, Senator.
    Senator Thomas. But you also indicated to us that we don't 
need this bill because the A-76 process is taking care of it.
    Mr. Koskinen. I have indicated that our experience is that 
increasingly, across the board, with franchise funds, with----
    Senator Thomas. Franchise funds, what does franchise funds 
have to do with this particular issue?
    Mr. Koskinen. With the franchise funds, Congress 
established six pilots to become competitors, in effect, 
marketers to agencies about their administrative support 
services--whether it is payroll, administrative, or financial 
systems.
    Senator Thomas. I understand.
    Mr. Koskinen. And they are beginning to operate. They are 
opening those competitions, and our rules are that the 
competitions have to be cost-competitive with the public. And 
agencies, once they have gone to a cross-servicing arrangement, 
can in fact move that contract to the private sector without an 
A-76 comparison.
    Senator Thomas. Last year you grandfathered existing 
services in order to avoid holding competitions.
    Mr. Koskinen. No, what we did last year, as I thought I had 
explained, was to grandfather existing services.
    Senator Thomas. I understand that.
    Mr. Koskinen. The National Finance Center at Agriculture 
now provides payroll services to a series of agencies. If they 
want to expand those, they have to cost compare----
    Senator Thomas. I know, and you will remember the Senate 
last year objected to the grandfathering and voted against it 
59-39.
    Mr. Koskinen. Voted against what?
    Senator Thomas. The grandfathering that you did last year. 
Now, my amendment was dropped from the omnibus appropriations 
bill, but I am just telling you that the Senate voted against 
that substantially. I guess my point is, it seems like instead 
of taking a look at and moving towards outsourcing, you seem to 
do everything you can to avoid it, and it puzzles me.
    Mr. Koskinen. I don't think that is a fair 
characterization. We went to a lot of trouble, consulting with 
the private sector as well as with the unions for about a year, 
to streamline and update the A-76 Circular for the first time 
in----
    Senator Thomas. And I am asking you if you use A-76 or not.
    Mr. Koskinen. We have put it at the disposal of the 
agencies, we have required them to give us their material, and 
they are starting to take a look at this. You made a good 
point. As you say, we are concerned about exposing this to the 
legal process. We are concerned about arbitrarily, across the 
board, coming up with a conclusion.
    Your point about the Park Service is a good one. As we look 
at agency strategic plans, as we look at the definition of 
their missions, and as we look at how are they organized, one 
of the things we are encouraging--and we would be delighted to 
encourage more--is for authorizing and appropriating committees 
to look at those areas and ask questions about them.
    So when you had those questions of the Park Service, it 
seems to us perfectly appropriate to have the Park Service 
explain to you what their strategic plan is, what their goals 
are, and how they are managing themselves as we go forward. We 
are doing that in our budget reviews. We have told the agencies 
that, as they go forward, they have a set of tools and they 
have to begin to explain to us how they are using them.
    Senator Thomas. I guess that is really the basic reason for 
this legislation. We have had this policy in place for over 40 
years, and there is nothing statutory to require it, so you 
don't really do it, and you ought to be doing it. Maybe you are 
right, maybe the Congress ought to be looking at it in the 
appropriations process, too. But since Eisenhower's time the 
Executive Branch has said, ``Well, you don't need a statutory 
provision, we're going to do it.''
    The time is going to come when we have to decide, are we 
going to do it or not? Are we just going to talk about it or 
are we going to do it? Is there some evidence? Did you bring 
some evidence? Can you show it? How many A-76s are we doing?
    But instead of that, frankly, and I don't mean to be 
unkind, but I am a little impatient with this going on year 
after year, the same thing.
    Mr. Koskinen. Well, I don't think we should gloss over the 
facts and act as if nothing is being done by the private 
sector. It is instructive to me that we now contract out 
substantially more for services than our total Federal payroll. 
Our payroll costs are at less than $90 billion. We are now 
contracting out for services at $115 billion.
    Senator Thomas. Almost all in defense.
    Mr. Koskinen. The $115 is almost all in defense?
    Senator Thomas. Much of it.
    Mr. Koskinen. We will try to get you those figures.
    Senator Thomas. Do.
    Mr. Koskinen. But you have to ask what the problem is. I 
understand the private sector would like more business. I am in 
favor of them getting business, to the extent that they are 
cost-competitive. But I don't think it is a fair 
characterization to say that the government is not contracting 
out, that it is not doing enough, and that it hasn't moved.
    If you look at the growth of contracting out, there have 
been other hearings on the Hill focused on whether we are 
moving too fast. Can we service these contracts? Can we oversee 
them appropriately? At this point, we are contracting out a 
phenomenal volume of work. That doesn't mean we shouldn't 
contract out more, back to the Chairman's question in terms of 
I think we need to continue----
    Senator Thomas. Why don't you give us some numbers, over a 
period of time.
    Mr. Koskinen. I would be delighted to give you the numbers.
    Senator Thomas. Five years, 4 years, you choose it. Give us 
the growth pattern in terms of the percentage of total 
expenditures that are contracted out.
    Mr. Koskinen. Right. I will give you the numbers as to what 
the growth has been in contracting out and what the decline has 
been in Federal employees, both in numbers and in compensation.
    Senator Thomas. And tell us where they came from.
    Mr. Koskinen. And I will tell you where they came from.
    Senator Thomas. OK.
    Senator Brownback. I think that would be helpful to have. 
We don't mean to be pressuring you, but we are.
    Mr. Koskinen. No, that is all right. [Laughter.]
    Senator Brownback. And we want you to feel a little bit of 
that, because what you are seeing here from both of us 
expresses our perception that there isn't near the level of 
privatization taking place that clearly could take place. I 
gave you one example. We have a bunch of others that we could 
give to you, and maybe that is what I ought to run by you, just 
saying, ``OK, what about this one and what about that one? What 
are you doing about those?''
    Actually, why don't we submit a list of nominees, and would 
you mind reacting to those?
    Mr. Koskinen. That would be fine.
    Senator Brownback. You are in the middle of the 
administration, and are supposed to be the bad guys and pushing 
all this stuff within the system of the Federal Government. We 
hope to create incentives within the agencies and overall in 
the administration for more of this to occur. But it is the 
perception amongst a lot of Members that there is just not 
enough happening, and what is happening is basically in the 
Department of Defense. This is fine and good, but it is one 
agency, and it ought to happen on a much broader basis.
    Until we start seeing real things happening, you are going 
to continue to have this. You are going to continue to have 
this sort of pressure, and then we are going to start working 
at it through the appropriations process, we are going to go at 
it this way, and we will just be fighting back and forth. We 
would rather work with you. You are in the middle of the 
administration and can push those sort of things.
    Mr. Koskinen. Right, and I think it is an important issue. 
We have supported it; we are behind it. But one of our concerns 
is that it ought not be our primary focus. It is ultimately a 
secondary measure of long-term effective performance.
    We are not doing this for philosophical reasons, although 
there are some who are. Our goal is to provide taxpayers with 
the most efficient operations for achieving agency missions. 
And I think we are all on the same page insofar as we want to 
determine what the agencies are trying to accomplish, their 
goals and objectives and their effectiveness, and the costs of 
getting desired results.
    And as we continue to push on the broader issue, I think 
the way to get people's attention and to motivate the agencies 
is to say, ``(a) we have fewer dollars than we would like, and 
(b) we are now being held accountable for the actual outcomes 
resulting from our activities. How can we increase that 
performance when we are not going to be able to do it through 
getting more money in appropriations?''
    And we need to encourage managers to say, ``One of the 
things we have got to do is become more efficient in the way we 
are organizing.'' One of the ways to become more efficient is 
to look at who is the best provider of commercial services----
    Senator Brownback. And actually make something happen.
    Mr. Koskinen. Right. And another way is to look at 
restructuring, redoing the way we do the work. We have pushed 
on a lot of fronts in that regard. These things are all part of 
the package. They are all important elements, but we are not 
doing them as ends in and of themselves. We are doing them 
because we are ultimately trying to achieve the best possible 
performance for the public in terms of achieveing those 
missions. So the Park Service is a great question.
    Senator Thomas. Nobody can disagree with what you just 
said, but you talk about it in such a broad way. You have to 
finally break down into taking action, producing results. You 
talk about efficiency. Well, everyone wants that. Then, 
finally, you have to say, ``Well, how do we do this? And here 
is an area we ought to be doing it in.'' Whatever the area is.
    Mr. Koskinen. I am saying that if we could get, and 
actually you can tell I am lobbying to get as much 
congressional support as we can. We are working hard with the 
House and the Senate----
    Senator Brownback. You are not doing real well.
    Mr. Koskinen. I think you are exactly right. We can be at a 
high level of abstraction and it doesn't make much sense.
    Senator Thomas. And I have noticed that some.
    Mr. Koskinen. But ultimately what I would like to have 
people do is to ask harder questions as they go through the 
process--agency by agency--about what we are actually getting 
for our resources. And if you could start to focus on that as 
the incentive, as the outcome of the discussion and the outcome 
of their work, then you get greater leverage on people to 
participate with you in streamlining and restructuring their 
operations.
    Senator Brownback. We need to wrap this up. I am going to 
submit to you a list of nominees.
    Mr. Koskinen. Good.
    Senator Brownback. I would appreciate it, if you would take 
a good look at those and see which ones you think we ought to 
go at. I would appreciate, if you would, answer Senator 
Thomas's question for him and for the Subcommittee----
    Mr. Koskinen. We will provide----
    Senator Brownback [continuing]. Of looking at privatization 
over a 5-year time frame, if you would.
    Mr. Koskinen. Sure.
    Senator Brownback. Let's just go back the past 5 years and 
you say, ``Here is where we have privatized over the past 5 
years.'' I think that would help me, I think that would help 
Senator Thomas, because we are both--I am feeling like how I 
treat my mother-in-law sometimes, which is I always go, ``Yeah, 
yeah, yeah, yeah, I'll do it,'' and then nothing happens. 
[Laughter.]
    And we got to see something happen here. So thank you. 
Sorry to give you a tough morning, but if you would react to 
those two things in particular and be specific, I would 
appreciate it. We will also look at your suggestions on the 
Department of Defense for changes in legislation to see if 
there are things we can help you out with there.
    Mr. Koskinen. That would be great.
    Senator Brownback. Thank you very much.
    Mr. Koskinen. Thank you both.
    Senator Brownback. For, the third panel we will be hearing 
from Dr. Samuel Kleinman, director of the Center for Naval 
Analysis. Next we have Captain Burton Streicher, CEC, USN, 
director of Navy Outsourcing Support Office; and Charles Davis, 
with Chamberlain, Davis, Rutan and Valk, formerly the associate 
administrator for operations, GSA.
    And I would note, for the other Members present, Dr. 
Kleinman and Captain Streicher are Federal employees and don't 
want to comment on policy issues, or on the particular 
legislation appearing in front of us. They are here to talk 
about their own experiences, and so we will limit our questions 
to non-policy matters. That is pretty tough for a couple of 
people in the policy field, so if there are questions we ask 
you that you don't feel are appropriate, just tell us and don't 
respond to them.
    If there is no problem with going with the order on the 
list, Dr. Kleinman, we would appreciate your statement. You can 
summarize and we can put the whole statement in the record and 
then have some good discussion.

TESTIMONY OF SAMUEL D. KLEINMAN,\1\ DIRECTOR, CENTER FOR NAVAL 
                            ANALYSIS

    Mr. Kleinman. Good morning, Mr. Chairman. Thank you for 
inviting me to testify before your Subcommittee. I apologize, 
but I am losing my voice and at some point I may ask my 
colleague Derek Trunkey to come forward and complete my 
statement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kleinman appears on page 53.
---------------------------------------------------------------------------
    I will be discussing our examination of competition in 
outsourcing. In the title of my talk, I put the word 
``competition'' first. We believe that competition is what we 
have gained in DOD from our outsourcing program. The program is 
built on the premise that all providers of services, both in-
house teams and private contractors, should be able to 
demonstrate that they provide the best value to DOD and 
government.
    I will be talking about our examination of competitions 
governed by OMB Circular A-76. Under this circular, in-house 
teams are allowed to submit a bid and the incumbent team can 
bid below its current costs, which it often does. The private 
team must bid at least 10 percent below the public team's costs 
to win the competition.
    Our initial work examined the U.S. Navy's competitions. 
Between 1979 and 1990 the Navy competed 25,000 positions, 80 
percent civilian and 20 percent military. Overall, the savings 
were 30 percent. In these competitions the public team won half 
the time. There was a 20 percent saving when the in-house team 
won and 40 percent saving when a private firm won. The in-house 
savings appear low because when no bidder produced any savings, 
the competition was decided in favor of the in-house team, and 
those no-saving competitions are included in their average.
    For about 30 of these competitions we went back to the 
bases to learn about quality and subsequent costs. Although 
there were a couple of defaults, in most cases costs were 
contained and quality maintained. We believe the reason is that 
when the contract ended, there were sufficient competitors out 
there to bid away the contract, so there were always 
competitive pressures controlling the contractors.
    In one large competition, we were able to follow 
performance and labor productivity through two recompetitions. 
We found that performance remained high and the labor 
productivity continued to improve.
    When contractors win, they have to offer any new jobs to 
the affected government workers. Only 3 percent of the affected 
workers joined the contractors in DOD. Most Federal workers 
prefer to continue employment with the government. However, our 
case studies did show that when a contractor loses a subsequent 
competition, most of the workers are rehired by the winning 
firm.
    We believe that the source of the savings is competition. 
Both public activities and private teams come in with their 
best offers and, as I noted, the in-house team wins half the 
time, so outsourcing only occurs when a private firm offers to 
perform the function at lower cost.
    Competition provides cost visibility and choice of 
suppliers. In many cases, for the first time, in-house teams 
constructed the full cost of what they were required to do, and 
they developed performance work statements. The government 
could then compare alternative sources for accomplishing the 
required work.
    When private sector teams win, they appear to reduce costs 
by using fewer people, not by paying less per person. We 
believe they do this by moving people from one job to another, 
by giving employees a greater range of skills, by using more 
temporary workers, part-timers, overtime, and workers from 
other sites to meet peak work load demands.
    There is a cost to competing and monitoring contracts. We 
estimated that the one-time cost to compete is about 10 percent 
of the annual value of the contract. The cost to monitor these 
contracts is 3 to 10 percent. The savings I reported to you are 
net of those monitoring costs.
    After examining the Navy's experience, we extended our 
analysis to all of DOD's competitions. I am going to show you 
what the results are on this chart. There were 2,100 
competitions, 80,000 positions----
    Senator Brownback. Would you mind moving that over to the 
other side? I hope that is not too inconvenient for you. We 
have more people on that side of the room, and Senator Thomas 
will be able to see it, too. Please proceed.
    Mr. Kleinman. We looked at over 2,100 competitions, 
military and civilian combined. There were 80,000 positions. 
Again, about 80 percent were civilians.
    Senator Brownback. I'm sorry. Could you tilt it just a 
little bit this way, now? I would like to be able to see it, 
too. There you go. Thank you. Sorry about that.
    Mr. Kleinman. We found that there were savings throughout 
DOD, across all the services and agencies, again about 30 
percent, and again, half the competitions were won in-house. We 
estimated that the annual saving to DOD was $1.5 billion a year 
from these competitions.
    We noticed that some competitions produced a great deal of 
savings and others produced no savings, and my second chart 
will show you the distribution we found. In about 22 percent we 
actually didn't have any savings. On the other hand, in 16 
percent of the cases, we had savings of over 50 percent.
    We saw that competitions for small activities were the most 
likely to produce no savings. In fact, close to 70 percent of 
the activities with no savings were competing only 10 or less 
positions. This is consistent with our observation that savings 
come from using fewer people. It is difficult to structure 
assignments for narrowly defined activities. This is an 
important point when considering how many activities to put 
into one competition. As I mentioned, smaller competitions 
provided less savings, yet many of the competitions are indeed 
small.
    And that will be my third and last chart. It shows that 40 
percent--857 of the 2,100 competitions--were for 10 or fewer 
positions. Those 40 percent of the competitions produced only 5 
percent of the total savings. Savings were greatest for the 
largest, over 200 positions. Unfortunately, in the middle it is 
less clear what is going on, but you can see at the very bottom 
there is definitely a loss from using those smaller 
competitions.
    Now, there are many challenges to successful competitions 
in outsourcing. As I noted before, the average cost to compete 
is 10 percent of the annual contract value. These costs are 
usually recovered quickly, usually within 4 months, but they 
can discourage regional offices that have to pay for the 
competitions out of their current budgets.
    It can take a long time to complete a competition. The 
average is 2 years. A recent Rand report noted that while 5 
percent were completed within 6 months, another 5 percent 
required 5 or more years. The lengthy competitions can be 
disruptive and costly. Workers, fearing that the work will go 
outside, start to look for other jobs, and no matter who wins, 
it takes time to recover from the disruption.
    Many competitions were cancelled before they even went out 
for bid. Forty percent of those started were never completed. 
Our analysis suggested that those cancelled were as likely to 
produce savings as those completed.
    Departments and agencies can take steps to meet these 
challenges. First, each department and agency should set up a 
competition and outsourcing office to serve as a central source 
of information and support. The offices would promote and 
arrange training, help structure and review performance work 
statements, provide templates for contracts, and send teams out 
to the local and regional offices to set up the competitions. 
We need to cut the cost and length of competitions, and the 
individual facilities and regions cannot be asked to do it 
alone.
    Second, the incentives at local and regional offices should 
be improved, as you have noted before. Competitions are costly 
and disruptive to them, and headquarters often cuts the budgets 
by the amounts of the savings, leaving the local and regional 
offices no better off for their efforts. We believe that the 
local and regional offices should keep the savings for a couple 
of years. They could use the money on workplace improvements 
that didn't make it into their original budgets.
    Third, the workers participating in the competition should 
be kept informed and supported throughout the process. They 
should know what is being competed, the schedule, and the rules 
governing the competition. They should be helped in 
reorganizing and preparing their own bid. Their objective 
should be to win, and we want them to take on the challenge of 
outside competitors. If they lose, they should be offered 
generous buy-outs and help in finding new positions.
    Fourth, agencies and departments should look for 
opportunities to consolidate several activities into one 
contract. The small competitions are not producing the savings 
seen in the other competitions. One facility could consolidate 
different functions into one competition, or several facilities 
could merge a common function into a competition.
    Finally, agencies and departments should use a selection 
process that allows them to pick the best value and not 
necessarily a sealed-bid, low-cost alternative. They are 
allowed to weigh past performance, management, and financial 
solvency of the bidders. In the past, the Department of Defense 
sometimes felt obligated to select low-cost bidders that they 
suspected could not perform.
    In summary, competitions produce the best efforts in all 
participants and the best value for our agencies and 
departments. The end result would include more outsourcing but, 
more importantly, it would lead to more efficient government.
    Thank you.
    Senator Brownback. Thank you, Dr. Kleinman. That was very 
illuminating, from your practice and what you have experienced. 
I will look forward to some good questioning.
    Mr. Streicher, thank you for joining us today, and the 
microphone is yours.

   TESTIMONY OF CAPTAIN BURTON STREICHER,\1\ CEC, U.S. NAVY, 
           DIRECTOR, NAVY OUTSOURCING SUPPORT OFFICE

    Captain Streicher. Good morning, Mr. Chairman, Senator 
Thomas. It is a pleasure to be with you here today and to 
discuss my experience when conducting OMB Circular A-76 
competition studies within the Navy.
---------------------------------------------------------------------------
    \1\ The prepared statement of Captain Streicher appears on page 60.
---------------------------------------------------------------------------
    In my present position I am responsible for assisting Navy 
and Marine Corps field activities in conducting A-76 
competition process by streamlining the process to a 
standardized notional 12 months, selecting and developing 
generic performance work statements, standard acquisition and 
source selection templates, new key process enablers, provide 
access to nationally based study support consultants, ensure 
lessons learned are quickly shared among the activities, and 
provide a single store-front point of service for local 
installation commanders.
    In 1984 I was the functional head of two different 
successfully completed A-76 competitions for public works 
services and transportation operations and maintenance at the 
then-Naval Air Development Center, Warminster, Pennsylvania. 
Both studies were started in May of 1982. They were in progress 
when I reported in July of that year.
    We studied about 78 full time equivalents or positions in 
both studies. The most efficient organization took us 4 months 
for each to do. The invitation for bid was released in May of 
1983 for the public works services, and the transportation 
studies were released later that fall.
    I spent most of my entire tour of 3 years to bring both to 
completion, as the public works services competition resulted 
in a lengthy 7-month appeal process which extended out the 
total study period. Both studies were retained in-house and 
they continued to be retained until the facility was closed 
under the BRAC process.
    I would like to share with you some of the lessons I 
learned from these experiences. First, there were numerous 
barriers which made it difficult for us to conduct these 
studies. The study units were suboptimized and conducted at 
different times, two different studies, which resulted in 
fragmentation of our management effort and required a 
significant amount of additional coordination effort by my 
staff.
    In accordance with the guidance at the time, we conducted 
the process in a serial manner, finishing one step before we 
commenced the next. If the product was not acceptable for the 
next portion of the process, I had to go back to the beginning 
of the previous step, with a commensurate loss of time and 
effort.
    For example, when I first saw the public works study 
performance work statement, it was not in a contractible 
format. I had to appoint three people full time to work for 2 
months just to convert it from what my shops and functional 
people had developed into something that we could put out on 
the street for advertisement.
    The prescriptive statements of work and the data gathering 
efforts to develop them were exceptionally labor intensive and 
almost impossible to cover all aspects of the service 
performance. The resulting ``how to do the work'' performance 
work statements were huge in size--we weighed them in terms of 
pounds--and left many opportunities for misunderstanding the 
requirements.
    In fact, I awarded a small consulting contract to provide 
an independent review of our final performance work statements 
just to determine where we had left holes in the requirements. 
The consultant found several, one of which hinged on the 
definition of a word used to describe the intermittent 
operation of our heating boiler plant. If not corrected, this 
word interpretation could have resulted in a contract change 
worth several hundred thousands of dollars if it had been 
awarded to an outside service provider.
    I also found that there was very little process technical 
experience located within the activity or the region. There 
were no user-friendly guides that could walk a functional 
manager through the process and explain what choices there were 
that could be made by the commanding officer or myself. 
Everything was done for the first time, with great uncertainty, 
whether it was done correctly or not.
    In addition, there was no formal lessons learned sharing 
mechanism to find out what was happening in other activities. 
We pretty much had to use our own personal contacts to get that 
information.
    The invitation for bids method of acquisition, which is a 
cost-only comparison, resulted in a decision for the bidder who 
interpreted the specifications to the minimum amount; this was 
whether they could actually do the work or not. This was 
commonly known at the time as an unlevel playing field.
    It resulted in an initial decision on the public works 
services study to an outside provider who bid almost exactly 
half of the independent government estimate, the government bid 
and the other four industry bidders. The union appealed this 
initial decision, and after more than half a year and numerous 
discussions, the contractor withdrew his bid.
    Despite the above barriers and the difficulties that I 
experienced, the process worked, and my activity was able to 
perform the same amount of service at a much-reduced cost. 
Competition vice the end nature of the service provider was the 
key to about a 20 percent savings for my command.
    Since my experiences over 13 years ago are not unique to 
just me, to overcome these obstacles the Navy has reengineered 
and streamlined the process to become a better management tool 
for activities to use, namely, better up-front planning and 
coordination using acquisition plans and integrated process 
teams of all parties involved in the process, to give the local 
commander greater control of the whole process.
    We have shifted to identifying minimum service required to 
support the mission and to define the requirements in 
performance outcome terms, which allows the service provider, 
whether it is outside or in-house, to determine how best to 
provide the service. We are holding industry forums to learn 
best business practices and adjusting performance work 
statements to allow better participation by industry and 
government providers.
    We have also developed a way to compress the A-76 process 
to 12 months between announcement and decision, through 
parallel versus serial operations, process enablers and 
templates, and an extensive support effort which includes 
enhanced training opportunities for the people doing the 
studies, regional facilitators, electronic connectivity for the 
lessons learned, and outside consultants being available to 
provide specialized expert assistance.
    Finally, we have shifted to a best value request for 
proposal vice lowest bidder invitation for bids acquisition 
process in order to balance the outcomes of the best contractor 
proposal and the government proposal prior to cost comparison. 
This new change corrects the greatest previous complaint by 
both sides of a unlevel playing field for the competition.
    These initiatives, along with the other aids that we have 
been developing, (such as a 1-800 outsourcing assistance 
number, an outsourcing home page on the Internet, a commander's 
handbook for successful competition, and electronically linked 
regional outsourcing support coordinators), we feel will go a 
long way in making the A-76 competition process a better 
management tool for the Navy, and it will provide another 
addition to the Navy commander's and the resource sponsor's 
tool kit to use, when appropriate, to reduce the cost of the 
Navy's infrastructure.
    In conclusion, I hope that sharing my experiences will 
assist the Subcomittee in its future deliberations.
    Senator Brownback. It will, and I appreciate very much that 
testimony. We will look forward to some questioning.
    Mr. Davis, thank you very much for joining us. The 
microphone and the floor is yours.

TESTIMONY OF CHARLES S. DAVIS III,\1\ CHAMBERLAIN, DAVIS, RUTAN 
   AND VALK, FORMER ASSOCIATE ADMINISTRATOR FOR OPERATIONS, 
                GENERAL SERVICES ADMINISTRATION

    Mr. Davis. Mr. Chairman, Senator Thomas, I appreciate the 
invitation and opportunity to discuss the Freedom From 
Government Competition Act, specifically in reference to my 
experiences and observations on the benefits and opportunities 
of competitive contracting. I have submitted my remarks for the 
record, and right now I would like to summarize those briefly--
--
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davis appears on page 64.
---------------------------------------------------------------------------
    Senator Brownback. Please.
    Mr. Davis [continuing]. And also add some additional 
observations.
    Before getting into my experience in the government, I want 
to touch briefly on the fact that the private sector has begun 
to use outsourcing more than ever before. Perhaps the best 
example of this is the automotive industry. I am from Detroit, 
and for 10 years I was an executive with one of the major auto 
companies.
    Since 1980, the revitalization of the American auto 
industry to a large part has depended upon outsourcing. This 
was not true from 1920 to 1978, where insourcing, in effect, 
was the mode of operation, bringing in parts suppliers and 
components suppliers. Ford used to make its own steel, its own 
glass for windshields, had its iron mines up in the Masabe 
Range, and had its own fleet of steamships. All these were 
considered inherently necessary to run the business.
    As you know, Ford finally had to stop insourcing when it, 
through antitrust problems, was forced to spin off its Autolite 
Spark Plug Division, and that effectively put a stop to this 
great insourcing flood that was believed, in GM or Ford or 
Chrysler, to be the way to go. With the competition from the 
Japanese and the global economy, all three auto companies have 
been forced to rethink, and if you just survey what has 
happened since 1980, they have been selling off division after 
division after division, outsourcing whole activities of their 
operations.
    They have been doing it not only for cost, and this is the 
point I wanted to bring up that is not in my prepared remarks. 
They are mission-oriented, just like government agencies are, 
and they realize it is not just cost savings that you get from 
outsourcing. Management is better able to focus their attention 
on their mission. The mission of those auto companies is 
designing cars, making sure the cars can be assembled, and then 
marketing them.
    But where the component parts come from, where the steel 
comes from, how it is manufactured, all the companies are 
interested in is the results of that; in other words, they are 
interested in the end product that is going to hit their 
assembly lines. They are not interested in being tied up in the 
management of all these component parts manufacturers and raw 
material manufacturers. It diverts their management attention.
    Likewise, when I was in a government agency, we 
continually--on a day-to-day basis were worrying about 
personnel problems, worrying about reorganization problems, 
worrying about coming up and trying to get budget 
authorizations. If we are directly managing all those 
activities, we have many more things concerning us and we are 
not focused on our end mission, which is the program we are 
supposed to be delivering to the public or to the other 
government agencies.
    So the reason I am adding this is, I heard earlier all the 
talk on outsourcing or competition is because of cost-
effectiveness. Equally as important is the ability of 
government executives, career and non-career, to focus their 
attention on mission and not be sidetracked with trying to 
always manage all the parts of the process.
    Now, speaking about my government experience, during the 
period from 1981 through 1985 GSA reduced its head count by 
over 9,000 FTE or by 25 percent. Over one-third of that 
reduction came through use of the A-76 process. The savings 
that we gained in GSA in 4 years was $120 million a year by the 
end of 1984.
    We conducted 500 A-76 reviews covering over 45 percent of 
the agency's head count during that 4-year period. The $120 
million in savings that occurred wouldn't have come had we not 
been able to fast track and to find ways around the normal 
impediments . . . impediments that I noticed was mentioned in 
the questioning coming from the Subcomittee today on the use of 
A-76.
    When we first started to try to implement the process, it 
seemed like it would take years. Each study was defined as 
taking 8 months, others would take a year or more, before we 
would be able to get out and contract.
    One of the things that we were able to do and one of the 
lessons we learned is to streamline the process by using 
standardized packages for both the analysis and standardized 
packages and standardized methodology in moving through the 
procurement process. We were aware that there were large 
savings to be made on large programs, but we were also aware 
that large programs bring large attention to them and are 
difficult and complex to manage.
    So what we tried to do, and one of the ways that we were 
successful, is we broke down the programs that we were going to 
A-76 into chewable bites. We concentrated on the area of below 
30 FTE and many times around 10 FTE. When we get into that size 
of procurement, you can speed it up, and our target that we 
reached was a 3-month cycle from the time that we identified an 
area of needing an A-76 study until the time it was out on the 
street being contracted.
    One of the other problems we had was the tendency in the 
government that to get ahead you have to go along if you are a 
career employee. It is very difficult to buck the agency. 
Career employees do not typically wish to see their operation 
reduced through the A-76 process. They don't understand they 
have as much authority under a contract as they would have with 
the FTE.
    So there is a natural reluctance to contract out. We would 
not have been successful if we had not made the A-76 process 
itself what is called a ``critical element'' in every line 
manager's performance review. Now, the critical element wasn't 
just completing a study . . . the critical element was having 
the bid on the street. A critical element means that if you 
don't get a satisfactory grade on it, you can be demoted or 
discharged under the performance review system for career 
employees. So we made A-76 a ``critical element'' throughout 
the agency. We felt that that was one of the most important 
steps to making sure the process moved ahead.
    Of course, we had to have support from the top. That was 
absolutely crucial, but the support wasn't just rhetoric. The 
top management in the agency had to take active support. For 
example, in one major A-76 program, we actually had to remove 
the top line manager out of the way. That is a drastic step, 
but that sent a signal to the whole agency that we were serious 
about completing the A-76 projects on time.
    One of the elements that is important to the process, also, 
was the element of setting the performance standards from what 
the private sector can accomplish, not just accepting the 
present performance standard in the government. In this way, 
not only do you get the cost savings--you get the cost savings 
regardless--but you also get an improvement in the performance.
    To give you one example, when we A-76'd the Franconia 
warehouse, the government performance standard was 29 days; 
this was from the time a warehouse order was received to the 
time the goods were shipped, out the door--1 month from the 
time the order was received to the time they had to have it 
shipped. In the private sector the standard was 72 hours, that 
was the maximum time period we could find.
    We couldn't get the government career employees in that 
area to agree to 72 hours. We actually had to remove some 
government employees when they said the lowest they could go 
was 16 days. Finally, we found a manager who was willing to 
commit to 6 days. That was where the performance standard was 
set . . . a reduction from 29 days to 6 days in the service 
level.
    When we bid the process, an outside contractor won that 
bid, and the performance was 6 days at 39 percent cost savings. 
So not only was the cost savings achieved, 39 percent lower 
than the prior year to operate that facility, but the 
performance went from 29 days to 6 days. So using outside 
performance standards is very necessary.
    The other thing I do want to state, and I can do this being 
outside the government, that for a career employee 
participating in directing the A-76 process and pushing it in 
an agency is tantamount to watching your career reach a dead 
end. You will never be promoted. I can't say that it happens in 
every government agency. I can say it happened in GSA.
    The people who ran that program in my agency, GS-15s, saved 
$120 million. The average cost savings was 38 percent. They 
reduced head count by 3,000. As a result, for the rest of their 
career in the government, they were never promoted. We gave 
them outstanding performance reviews, and I think for the rest 
of their careers they had either excellent or outstanding 
reviews, but having the career people sit on the SES selection 
board meant that there was always a reason that these 
individuals were not selected for SES, and I attribute that 
directly to the fact that they took on the bureaucracy through 
the A-76 program. I don't know how to solve that through 
legislation, but it is a real problem.
    As I said, I have submitted my remarks for the record. I 
would be glad to answer any questions you have.
    Senator Brownback. That last statement was particularly 
thoughtful and provocative. I wish you had proposed a solution 
to it, as well.
    Do you have some questions, Senator Thomas? Would you like 
to ask one or two before you leave?
    Senator Thomas. Yes, sir. Thank you, and I appreciate your 
testimony and all of you being here. Captain.
    Captain Streicher. Yes, sir?
    Senator Thomas. You went through this thing. I guess this 
was fairly early on, the experience you talked about here?
    Captain Streicher. Yes, it was.
    Senator Thomas. So that you were sort of experimenting. 
Would it be useful to have some outside assistance in doing the 
specifications and setting up these kinds of things? Again, I 
go back to an agency manager who probably hasn't or may well 
not have done that, for instance in the military. Would it be 
useful to have some kind of professional help set up the 
criteria?
    Captain Streicher. Yes, it would. Actually, that is kind of 
what we have done in the Navy. We got five consultants and 
locked them up in a room with ourselves, and we produced this 
guide for activity commanders that really walks them through 
the process and gives them the kind of guidance I didn't get 
back in the 1980s.
    Senator Thomas. Yes.
    Captain Streicher. It tells them what the steps are. It 
tells them what should be produced, about the time it should 
take to do it, who the key players should be. It basically 
gives them a very basic guideline of how to go through the 
process and what decisions they can make as the Commander.
    So I think we have met that need at this point. The 10,000 
studies that the Navy announced in January, we are in the midst 
of doing the most effective organizations and the statements of 
work right now, so we are kind of in a trial and test right now 
to see how well it does work, but it seems to be so far.
    Senator Thomas. Yes. That is very interesting. Thank you, 
sir.
    Senator Brownback. Thank you, Senator Thomas.
    I appreciate what you folks have done here. You have 
stepped up and done some of these privatizations, and have done 
so effectively. I found this instructive, especially where you 
are saying that the larger projects are the ones to concentrate 
on. These are going to be difficult to do anyway, and you don't 
save much on the smaller positions. Has this been your clear 
experience?
    Mr. Kleinman. Yes, sir.
    Senator Brownback. Are there particular legislative changes 
that we could make, if you can comment--I know you can't 
comment on policy. Are there particular legislative barriers 
you ran into, in trying to do the things you did on using this 
A-76 process?
    Mr. Kleinman. I don't think that is a problem, sir. I am 
not speaking for the Navy here. The way A-76 is written now, 
you don't have to go through it for 10 or less people in the 
activity, yet we have chosen most of the time to do that.
    I think that the people who did that, did it because they 
were very cautious and wanted to show everyone that they did 
this as a fair way of doing business, and to offer the in-house 
team an opportunity to bid on it. So they could have gone 
directly outside, and they chose not to.
    This gets back to the whole issue of the incentives, how do 
you speed up the process, an issue that I believe is very 
important; cost visibility, that there is never really an 
appreciation of what it really costs to do things in-house, and 
it is never visible to them; and also the flexibility to make 
the right decisions. I think those are the issues here, and if 
we have those in place, we will see more competitons and we 
will see big savings.
    Senator Brownback. Dr. Kleinman, your statement on 
incentives, you believe that--I believe it was you that stated 
that--when you make these savings, make sure that the entity 
gets to keep the same amount of money coming to it for a year 
or two, as one of the incentives that you would cite. They 
could use this for equipment upgrades or whatever other things 
they might feel they need?
    Mr. Kleinman. Yes, sir. It could be bonuses, like you 
discussed earlier. It is easy to say for DOD, because the big 
issue in DOD is meeting its budgets after the turn of the 
century. I mean, that is how they are looking at it, to 
increase modernization after the turn of the century. So 
allowing the competitors to keep some of the money in the first 
2 years, will maximize the number of competitions and then get 
DOD to its end point, which is to free up some money after the 
turn of the century for the modernization that it needs.
    Senator Brownback. And that would be one of the key 
incentives that you would suggest would be useful in 
encouraging these?
    Mr. Kleinman. That would be one. When I talked about the 
workers, I discussed minimizing the disincentives. You can help 
them compete.
    I mentioned the buyout issue. I think that is very 
important. I believe that you can make it sufficiently 
attractive that people in activities who don't get it are 
disappointed, and look at those who have just gone through the 
competition as the people who have done the best, so I think 
that would help to incentivize the workers to work with the 
system.
    Then there is another point here. Even if it only takes a 
year to complete, you want to hand over an activity that is 
running well to whoever wins. And if workers start leaving a 
year beforehand, by the time you get to selecting a winner, the 
actvity is already understaffed. Things aren't getting done, 
and it really does take them time to get back up. So anything 
that you can do to keep the workers there up to the transition 
point, would minimize that disruption cost.
    Senator Brownback. Now, I want to say something here that I 
think doesn't get said enough, and it is that I and every 
Member of Congress appreciates the Federal employees. It is 
often seen as some sort of adversarial system, because we are 
passing the budgets, trying to balance the budget, and we are 
trying to make cost savings. But I just want to say, as a 
former Federal employee, that I appreciate Federal employees 
and what they do.
    But what we are trying to get is an efficient operation, as 
effectively delivered, as we possibly can. This has created too 
much of an appearance of conflict, when all we are about is 
trying to have an efficient, effective type of system. I 
realize that there are people who respond to this and say, ``I 
need to just dig in and fight this off, and soon this way, too, 
will pass,'' and there will be new Members of Congress and 
things will change.
    But we are broke, guys. I mean, we are $5 trillion in the 
hole right now. We are still running deficits of about $67 
billion, but it is probably really closer to $150 billion by 
the time you take the trust accounts and things like that out. 
We are not yet near the position we have to be, as we prepare 
for when the baby boomers start retiring.
    And I do want to state to all the Federal employees who are 
here, and any that might be listening--we appreciate what you 
are doing. It is just we have a problem here, of trying to be 
able to get this figured out. Mr. Davis.
    Mr. Davis. Mr. Chairman, from my experience in the civilian 
side, there were some legislative impediments that were put in 
the way after we started really rolling on this process and it 
was evident that we were going through almost half the agency.
    In the 1984 continuing resolution, the House tied the 
reduction of any custodial guard, elevator maintenance, or 
messenger service to the Veterans Preference Act, which said 
you couldn't contract out if a veteran could fill the job, 
which basically stopped a major part of our effort for a while. 
Eventually we got some relief in 1985 when they allowed us to 
contract those positions out if they went to a sheltered 
workshop for the blind or seriously handicapped, but that was a 
strong limitation. If that is still in place, that would be an 
impediment.
    The second comment I would make is that although it is nice 
to look at the larger projects, because you perhaps get 
proportionately greater cost savings, you also are taking on 
proportionately greater risk of the procurement getting blown 
up, of it getting delayed so it truly is a 2- or 3-year effort 
to get it through.
    The larger the project, the more visible it is, and the 
more visible it is, the more the other forces that would rally 
around the flag against it.
    Second, the smaller projects can move much more quickly and 
build momentum in the agency, so in our agency we opted to save 
in your case on the chart, the 28 percent or the 22 percent and 
get it in quickly rather than wait and take the risk of not 
ever getting to a 30 percent or a 31 percent savings.
    Last, you asked for some recommendations. One of the 
problems we saw in our agency was the definition of 
``inherently governmental.'' Our general counsel inside the 
agency defined ``inherently governmental'' as almost everything 
except pushing a broom. We did not have that view, but once the 
general counsel of the agency defines ``inherently 
governmental,'' you are stuck.
    It would be very interesting to see what the Senate would 
think of what ``inherently governmental'' is. My own opinion is 
``inherently governmental'' is the person that makes the 
decision, and not even the staff that necessarily analyzes the 
data. But in the government, anybody that touches policy, 
whether it is a secretary or an analyst or whatever, is 
``inherently governmental'' . . . and that certainly does 
restrict the use of contracted employees and of contracting 
out.
    Mr. Kleinman. I agree with Mr. Davis. In DOD, larger 
studies did take longer and were more likely to be canceled, 
but that again gets back to the problem that it is the up-front 
costs that determined what we did and what we did not do, as 
opposed to looking at the ones that would really give us the 
biggest payback. But he is right. They did take a lot longer 
and a lot more were canceled of the larger ones.
    Senator Brownback. What do you think of Dr. Kleinman's 
suggestion that the agency keep the amount of the savings for a 
year or two as an incentive to the system?
    Mr. Davis. Well, I come at it in two aspects. As a 
taxpayer, I hate to reward somebody for doing what they should 
have done in the past simply because they did it now. But once 
you cross the Beltway and get into government, some of the 
rules change, and in government that might be a necessary 
incentive.
    Senator Brownback. And you do not have any suggestions on 
what we can do to civil service managers who willingly 
participate and are blackballed along the way for further 
rewards or advancement?
    Mr. Davis. Well, I think you have the same problem here as 
you have with a whistle-blower in an agency. You cannot 
legislate against discrimination very well because it happens 
very quietly, discrimination for whatever reason--in this case, 
discrimination because somebody went against the system in a 
strong way. I think perhaps one thing you might do is set up a 
bonus program out of some of the savings to bonus those people 
who are successful in the process.
    Senator Brownback. It seems to me then we are back to 
having the division or the agency or the entity that saves the 
money keep some of it for a period of time. And maybe you do 
that for a year's period of time and give them wide discretion 
on how that money is spent then.
    Mr. Davis. That is true, and one of the other problems you 
may get into is the determination by personnel of what the 
grades will be in that area after you have A-76'd all this FTE 
out. That is a great disincentive. The grades should go with 
the responsibility of the dollars, not necessarily the head 
count or the number of people who are reporting to you, and 
that can be a problem in the personnel system.
    So one of the incentives maybe is to assure that the grades 
either stay the same or actually might justify an increase, but 
certainly at least stay the same for the people managing the 
process.
    Senator Brownback. Very good. Gentlemen, I think this has 
been very illuminating from a practical standpoint since all of 
you have participated in this process. I very much appreciate 
your coming forward and testifying.
    To those watching, we are going to take a recess from this 
hearing and reconvene at 12:30 for the final panel at that 
time, and you are certainly welcome to return. We will be in 
recess until 12:30.
    [Recess.]
    Senator Brownback. We will reconvene the hearing. Thank you 
very much for accommodating me on breaking the hearing into two 
parts.
    The final panel, panel 4, includes Nye Stevens, Director of 
Federal Management and Workforce Issues, U.S. General 
Accounting Office, and John N. Sturdivant, the National 
President for the American Federation of Government Employees.
    Welcome, gentlemen, to the Subcomittee. You know the bill 
that we are looking at and the hearing that we are having in 
regard to it. I appreciate very much your willingness to come 
here and to testify for the record and in front of the 
Subcomittee.
    Mr. Stevens, you are listed first on the program. We will 
go with you first. Thanks for joining us.

 TESTIMONY OF L. NYE STEVENS,\1\ DIRECTOR, FEDERAL MANAGEMENT 
AND WORKFORCE ISSUES, GENERAL GOVERNMENT DIVISION, U.S. GENERAL 
                       ACCOUNTING OFFICE

    Mr. Stevens. Thank you, Mr. Chairman. I would like to 
summarize my lengthy statement, Mr. Chairman, and have it 
submitted for the record and just hit the high points here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stevens appears on page 74.
---------------------------------------------------------------------------
    The revisions in S. 314 which have been incorporated in the 
bill since the version we testified on last year we think have 
substantially improved it. They relate to the use of best value 
as a criterion for contracting decisions, a recognition that 
there are occasions when private sector sources are inadequate 
to meet the government's needs, and that the definition of 
inherently governmental functions is somewhat situational or 
dependent on the context.
    We recently issued a report that we discussed with the 
Subcommittee on privatization experiences of five States that 
have had major initiatives in this area--Georgia, 
Massachusetts, Michigan, New York, and Virginia--as well as the 
city of Indianapolis, and from those emerge six lessons learned 
that were common to all of those and that we think might be 
useful to apply to the initiative in S. 314.
    The first thing that these governments learned was that 
they needed to have committed political leaders to push a 
privatization or contracting initiative.
    Second, there needed to be established an organizational 
and analytical structure to carry out and implement the 
initiative.
    Third, there were legislative changes needed, often 
preceded by resource cuts to force the agencies to engage in 
greater contracting.
    Fourth, they all perceived the need, certainly by the time 
they were done, to develop reliable and complete cost data on 
exactly what it cost the government to perform these functions 
in order to support informed decisions on what to contract out 
and also to defend those decisions to critics--and there are 
inevitably critics of the process.
    Fifth, they needed strategies to assist the workforce in 
making a transition to what is a quite different privatized 
environment.
    And then, finally, enhanced monitoring and oversight of the 
contracting process was the weakest link that most of them 
identified in the processes that they had undertaken.
    Just very briefly, I would like to compare these to the 
provisions of S. 314. There is no political champion provided 
for in that bill. There probably cannot be one in a legislative 
measure like that. It does, however, provide a tool that a 
dedicated political implementer could use to carry out a 
privatization program. It provides a stronger foundation, but 
certainly not a substitute, for the political leadership that 
the other entities found was necessary.
    The governments that we visited all did report the need to 
establish a dedicated organizational and analytical structure 
to carry out the privatization initiative, and S. 314 does 
that, in establishing in OMB a new center for commercial 
activities which has responsibility for issuing regulations, 
implementing requirements of the legislation, ensuring 
compliance, and providing guidance and information and 
assistance to agencies, to private sector entities, and to 
Federal employees themselves.
    Since OMB is given very wide latitude in these 
regulations--and this is in some contrast to last year's 
version of the bill--there are going to be a number of issues 
arising in implementation that OMB is going to have to make 
choices on: For example, whether or not such entities as 
government corporations and government-sponsored enterprises, 
federally funded research and development centers, even the 
U.S. Postal Service can be eligible for contracting from the 
Federal Government, which would require them to be defined in 
some way as private sector sources, which are eligible; the 
role of public buildings, there would be a substantial question 
in here of whether public buildings could still house Federal 
employees or whether they would have to be transferred to the 
private sector and there would be rental and leasing agreements 
as the most common way to house Federal employees; how OMB 
would incorporate congressional views over sensitive 
conversions.
    A number of questions like this lead us to suggest that 
perhaps OMB should have a strategic plan submitted to Congress 
as a means of getting agreement from Congress that the way it 
is going about this is indeed a sensible one that the 
legislative branch would agree to.
    We also worry somewhat about OMB's resources in the 
management area. We have issued reports that question their 
ability to carry out even the management responsibilities they 
have today, much less the substantially augmented ones that 
this would require. And, of course, a strategic plan would help 
address that resource question.
    In our State and local work, we found that all five of the 
States and the city of Indianapolis used some combination of 
legislative changes and mandatory resource cuts as part of 
their privatization initiatives to show they were serious and 
to really force agencies to make the tough choices that as 
previous witnesses testified are often very difficult because 
of the inherent bureaucratic dynamics. The balanced budget 
agreement may serve that same function in the Federal context, 
but this bill does not.
    The bill does have implications, however, for a number of 
existing laws. It does not actually repeal any of them, and the 
status of some existing legislation would raise questions in 
our mind. For example, the Economy Act, which we have mentioned 
before, and particularly the status of the General Services 
Administration, which was created and exists precisely to 
provide services to other Federal agencies, conflicting with 
the prohibition in the bill against agencies providing goods or 
services to other governmental entities. So I think that 
probably needs clarification if there is a role foreseen for 
the General Services Administration, which, as you know, 
provides office space and consolidated purchasing and 
negotiates with airlines for government-wide air travel 
contracts and that sort of thing.
    In the governments we visited, reliable and complete cost 
data on government activities was identified as something that 
was absolutely essentially in assessing the overall performance 
of activities that were targeted for privatization and in 
informing the decisions and in justifying those decisions. This 
is an area where the Federal Government is particularly weak. 
As others have testified and we testify in many other contexts, 
the ability of the government to determine what it costs to do 
anything is severely in question and will be until agencies 
meet--and they do not now meet--the Federal Accounting 
Standards Advisory Board standards requiring agencies to 
develop full measures of the costs of carrying out a mission or 
producing products and services. We do not have that capability 
now, and that would be a severe constraint on this bill.
    We mentioned that workforce transition strategies had been 
identified as these other identities as very important. The 
bill's preamble, we note, states that it is in the public 
interest for the private sector to utilize government employees 
who are adversely affected by conversions, but there does not 
seem to be a provision for that in the actual legislation. 
There are not any new rights or privileges embodied in it.
    It does, however, assign to OMB the function of providing 
information on available benefits and assistance directly to 
Federal employees. We would suggest that that would be a new 
role for OMB, such a small agency, probably one more 
appropriate for the Office of Personnel Management, which has 
current responsibilities and a good deal more experience in 
that area of dealing directly with Federal employees.
    And then, finally, Mr. Chairman, when the government's 
direct role in the delivery of services is reduced through 
privatization, these governments identified a much greater need 
for aggressive monitoring and oversight of the contracting 
process. Most of the governments said that this was the weakest 
point, the weakest link in their privatization processes.
    And all of our indications are that this would also be a 
problem at the Federal level. The agencies that do depend most 
heavily on contracts--and some of the newer agencies do, NASA 
and Department of Energy, for example, both over 90 percent of 
their dollars go into contracts--these are commonly identified 
as high-risk areas by the government. Certainly the practices 
carried out in those agencies should not be emulated on a 
government-wide basis.
    We can discuss any of these questions, Mr. Chairman, or 
others. We have done a great deal of work on the A-76 process 
in the past, and if you would like to go into matters that were 
discussed earlier, I can discuss that, too, after Mr. 
Sturdivant's statement.
    Senator Brownback. We will do so. Thank you for your 
testimony.
    Mr. Sturdivant, thank you very much for coming in front of 
the Subcomittee. Before you start, I just wanted to say thanks 
to the Federal employees and the Federal workers for doing all 
that you do, because you guys work hard and do a lot of work. 
This is not a witch hunt to say that these guys are bad. It is 
a hunt to get to a balanced budget, and it is a hunt to start 
paying our debt down. And this is a key way we can look at the 
effort. So I hope we can work with you, and I also hope you can 
convey to your employees our thanks for all the work and the 
effort, and that this coming from a former Federal employee 
himself.
    Thanks for joining us here today.

    TESTIMONY OF JOHN N. STURDIVANT,\1\ NATIONAL PRESIDENT, 
      AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO

    Mr. Sturdivant. Thank you, Mr. Chairman. I am John 
Sturdivant, National President of the American Federation of 
Government Employees. AFGE represents more than 600,000 Federal 
workers in some 68 agencies. Approximately one-half of our 
membership is in the Department of Defense. And although this 
is my first appearance before your panel, I do look forward to 
working with you and your staff on other issues of concern to 
Federal and District of Columbia employees.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sturdivant appears on page 90.
---------------------------------------------------------------------------
    Let me now say a few words about Senator Craig Thomas, the 
sponsor of this legislation. We may disagree about contracting 
out generally, but I would be the first to say that the Senator 
listens to constructive criticism and learns from it as well. 
In other words, we can disagree without being disagreeable. 
Reasonable people can. And although this year's version of the 
Freedom from Government Competition is still, in our opinion, 
profoundly flawed legislation, the bill is at least an 
improvement over its predecessor.
    While it is safe to say that AFGE is unlikely to agree to 
gutting or replacing OMB's Circular A-76, we would certainly 
approach with an open mind any suggestions Senator Thomas puts 
forward with the intent of making the circular even more 
equitable.
    Mr. Chairman, AFGE is not reflexively opposed to each and 
every instance of contracting out. In these times, such a 
position is as unrealistic as it is untenable. And because we 
are conscientious employees and also hard-working taxpayers, 
AFGE members are determined to see that the Federal 
Government's dollars are spent wisely. Quite simply, Federal 
employees should not perform work that is not inherently 
governmental if they cannot do it more effectively, more 
efficiently, and more reliably than contractors.
    But we are also unreservedly pro-competition for work that 
is not inherently governmental, and it is competition that is 
good for the Nation's taxpayers and the government's customers.
    As GAO concluded in a recent report, competition is the key 
to realizing some savings, whether the function is outsourced 
or remains in-house. Savings from completed functions occur 
regardless of whether the government or a private company was 
awarded the work. The government won about half of the time, 
and private industry won the other half. And that is why AFGE 
was the only Federal employee union to work with the 
administration last year to reform A-76. And in many instances, 
the reform of A-76 makes it easier for the govenrment to 
contract out. But it also provides--and we think that this is a 
bonus for the taxpayers--that when the work can be done, more 
effectively and more efficiently in-house, it provides for work 
to come back in-house, and we did not have that before.
    This effort resulted in a revised supplement that, while 
permitting more flexibility to contract out, also ensures 
Federal employees greater involvement in the competitive 
process and makes contracting-out a two-way street by 
permitting work to return back in-house, as I mentioned 
earlier, when it is more cost-effective to do so. And you talk 
about a balanced budget. I think we all want a balanced budget. 
I want a balanced budget. So I think that the focus needs to be 
on what does it cost the government to get particular jobs done 
and whether or not they can get them done more effectively and 
more efficiently.
    The fact that A-76 is now under continuous attack is 
implicitly a compliment to Federal employees and their work. 
Several years ago, Federal employees were losing 70 percent of 
all A-76 competitions. As you might expect, contractors had 
considerably fewer problems with the circular then. However, 
agencies, employees, and managers alike, often working through 
our labor-management partnerships, learned from their defeats, 
looked to the private sector for inspiration and guidance, and 
started to run their operations more like businesses.
    I guess this would give me an opportunity to talk about one 
of my pet peeves. When you start talking about contracting, 
when you start talking about contracting studies, they always 
talk about going to the most efficient organization, or the 
MEO. And in AFGE, we believe that we should be working every 
day, whether our jobs are threatened to be outsourced or not, 
we should be working every day for the most efficient 
organization. And that is one of the reasons why we work with 
the administration and we embrace this whole concept of 
reinventing government, changing government, and making 
government work better, because we are the ones who come in 
contact with the taxpayers in areas like the Social Security 
Administration and the Veterans Administration. We are the ones 
who understand the importance of good customer service for our 
taxpayers. And as we began to see that, as we began to realize 
that the American people want better, more effective, and, as 
you have indicated, smaller government, we recognized that we 
needed to be a part of that process.
    We saw reform, we see government reform, we see changes in 
government kind of like a freight train coming down a track. A 
lot of my colleagues in the labor movement have taken the 
position to get in front of the freight train and do this 
[indicating with raised, open hand]. That is not my idea of 
protecting your members.
    As a result of that, we decided to get on that train and to 
try to make our way to the engine to have some say as to how 
fast the train goes, where does the train stop, and what is its 
destination. Because, you see, our union is different from a 
lot of other private sector unions. Of course, we believe that 
pay, benefits, and a quality of life is important to the people 
that we represent. But we also have another role, and that is a 
policy role to point out to policymakers like yourself the 
impact of their policies not only on the constituents that we 
serve as government employees, but the impact upon the 
taxpayers and what it would cost. And we think that we are 
doing that, and we are going to continue to do that.
    In doing so, we pulled even with the contractors, winning 
every other A-76 competition. Now, as you might expect, the 
contractors are not so happy with the circular, even though the 
Federal Government runs up service contracting bills of 
approximately $120 billion annually. So there is a lot of 
outsourcing going on somewhere.
    Mr. Chairman, let me now express our concerns about S. 314. 
We believe that this bill is flawed for several reason. The 
first is that S. 314 is not needed. Last year, AFGE contractor 
representatives and officials from many Federal agencies worked 
with OMB officials to reform A-76. The resulting supplement 
provides Federal managers with unprecedented latitude and 
flexibility to outsource to the private sector. It requires 
agencies to annually determine which activities it will 
consider for conversion to contract, as well as which 
inherently governmental functions it will continue to perform 
in-house.
    It mandates primary reliance on the private sector when it 
is shown to be cost-effective. It provides agencies with 
unprecedented flexibility to waive the circular's cost-
comparison requirements in a wide variety of situations. 
Moreover, the Federal Government is engaged in the largest 
privatization and outsourcing effort ever undertaken. 
Currently, over 40,000 positions are being examined for 
contracting, and many thousands more are being identified for 
outright privatization.
    The rationale for this bill is flawed. Senator Thomas 
claims that work currently performed by the Federal Government 
could be better done and could be more cheaply done through 
outsourcing. Since the notion that the private sector is always 
better and cheaper is false, legislation based on such a notion 
is clearly not in the best interest of the taxpayers.
    For example, the GAO surveyed nine studies on service 
contracting and concluded that in each case substantial savings 
would have been realized if the work had been retained in-
house. GAO also reported that even after years and years and 
billions of dollars in contracting out, it could not 
convincingly prove nor disprove that the result of Federal 
agencies' contracting-out decisions had been beneficial or 
cost-effective.
    Mr. Chairman, as you consider S. 314, I ask you to keep 
several principles in mind. Just because a service has always 
been provided by the Federal Government does not mean that 
Federal employees must do that work in perpetuity. Just because 
contractors are hard-working taxpayers, as Senator Thomas often 
reminds us, does not mean that they have some entitlement to 
funds in the public purse. After all, Federal employees are 
also hard-working taxpayers. And just because agencies with 
managers and rank-and-file employees, often working together in 
partnership, are more successful competitors in the A-76 
process does not necessarily mean that the system has suddenly 
become defective. And just because contractors are not winning 
as many A-76 competitions now as they had in years past does 
not necessarily mean that they are being victimized by biased 
public-private competitions.
    We would also ask you to seriously consider the suggestions 
we have made in our written statement for improving the 
competition process and generating savings for taxpayers. The 
bottom line, Mr. Chairman, is that although we have our own 
point of view, AFGE is ready to work with you to address the 
concerns that have been raised at today's hearing.
    Thank you for the opportunity to testify this morning. I 
will attempt to answer any of your questions, and I would 
request that my more lengthy written statement be entered into 
the record.
    Senator Brownback. Without objection, we will do that.
    Thank you both for testifying.
    Let me start, Mr. Stevens, with you, if I could. You have 
studied a number of States, and the city of Indianapolis has 
gone through basically some iteration of what is starting in 
the Federal Government or has been going on for some period of 
time. You identified problems and incentives, basically, to 
make it take place. Where it has happened, you generally find a 
governmental entity that focuses on the area, and some 
political leadership that is committed to this taking place. 
There is also some pressure on the system, some budgetary 
pressure, something. All those are kind of the stick approach 
to this, if you will. There is always somebody beating on this.
    Is there another incentive side to it? Has anybody tried 
the incentive that was talked about here earlier, about how you 
let an agency keep the same level of budget for a year after 
they have privatized a function? Have you studied that?
    Mr. Stevens. Yes. Certainly, I think the city of 
Indianapolis, which probably went farther along than the others 
on this, used that as a conscious strategy. The other thing 
they discovered was that the role of individual employees in 
their groups was extremely important here and that confronting 
them as automatic adversaries of the process was a mistake. 
Once they learned the lesson to bring them in, to get them to 
be part of the process--and to do that you almost have to offer 
them an opportunity to compete for the work--that, too, proved 
to be an incentive, a way to say, well, we can improve what we 
are doing. It did not become a confrontational question as far 
as the employees were concerned. So that was yet another lesson 
that was learned.
    Senator Brownback. So Indianapolis tried the system of--I 
don't know if I want to call it bonuses--allowing them to just 
keep the money for another year and wide discretion on how you 
spend it.
    Mr. Stevens. Yes. It was not simply just turned back to the 
treasury. It was invested in agency operations.
    Senator Brownback. How did that work? You did not mention 
it.
    Mr. Stevens. Very favorably, yes. The whole operation in 
Indianapolis was very favorable, and still other governments 
are still visiting them monthly and learning lessons from their 
experience.
    Senator Brownback. So you would encourage that sort of 
approach yourself, or do you think it is not tested enough?
    Mr. Stevens. Certainly as a matter of principle we would 
encourage it. There should be some limitations on it. I heard a 
suggestion that perhaps bonuses to employees involved might be 
one way it was done, and I would be somewhat careful about 
that.
    Senator Brownback. That is a problem to me because we are 
not careful about that on the private side. They say, OK, you 
made more money for the company, you can keep more, because we 
are all benefiting from this. And I recognize the political 
realities on the other side of looking at that.
    Mr. Sturdivant, you had a group of OPM employees that 
formed an ESOP and then bought their business from the 
government. You are familiar with that?
    Mr. Sturdivant. Yes, I am quite familiar with that.
    Senator Brownback. What do you think about that? What is 
your reaction to those employees doing that?
    Mr. Sturdivant. Basically, my understanding, in fact, that 
was kind of a piece out of one of our local unions. Presently 
those employees I do not believe are represented. But the 
employees had some concerns about that. They had some 
misgivings or what have you when OPM spun that off. But my 
understanding now is that basically it is working pretty well. 
I know that OPM is going to issue some type of a follow-up 
report on it, and I believe that some of the employees are 
probably making more money than they were when they were 
Federal workers doing that type of work.
    So, once again, as I said earlier, all of these--we do not 
reflexively oppose all of these experiments, as long as the 
employees have a part of that process. I don't know that the 
employees are as involved in some of the decision-making as we 
would like to see if we were involved, if we represented them. 
But I do believe that the employees are generally--their morale 
is good and I think that the work is done.
    What is interesting about Indianapolis, is that when the 
new mayor went in with an idea almost like Senator Thomas' 
bill, that we have to privatize as much as we can wherever we 
can. But once he got in there and once they began meeting with 
the employees and once the employees had an opportunity to 
compete for their own jobs, they found that a lot of the work 
that they thought they wanted to privatize, they got much more 
efficient themselves, and that work did stay in-house. I think 
that David Osborne in his book ``Reinventing Government'' talks 
about some cities and States where the work was privatized, and 
then it was brought back in as the employees decided that they 
wanted to bid on the work.
    It is not one-size-fits-all. Employees have to have an 
opportunity to compete for their jobs--we think they do--and, 
of course, the employees have to have an opportunity to bring 
their ideas to the table and to get down to the most efficient 
organization, which means getting rid of the mid-level managers 
and going toward some type of self-managed work teams which we 
have in the Federal Government, and I have talked about that in 
my written testimony. In a lot of instances, a lot of the 
changes have indicated that the work is much more effective and 
much more efficient.
    I think the other piece which I think we all have a 
responsibility--and certainly those of us who are elected--is 
to customer service, the quality of the service and the 
customer services to the taxpayers who are our constituents. 
And that has been improved.
    Senator Brownback. Hopefully competition helps do that, 
whether it is public employees competing for a public service 
or private sector employees. Competition is such a mainstay in 
a capitalist society. I read Mr. Osborne's book ``Reinventing 
Government,'' and that was one of his key points as well, that 
it is just that feature of competition that hones the skill and 
sharpens the edge.
    Mr. Sturdivant. And that is one of the things that we do, 
quite frankly, and you will see it all through my testimony, is 
that we are not saying that Federal employees should do the 
work no matter how ineffective or how inefficient they are. We 
are saying that we should have an opportunity to compete for 
our jobs, and as part of that, the reinventing government 
process, through the employee empowerment process, we want an 
opportunity to bring our ideas to the table so that we can say 
that what we are doing here and the way we are doing it there 
is not effective and is not efficient and is very costly to the 
taxpayers. And that is one of the reasons why we have increased 
the amount of A-76 competitions that we have been able to win, 
bringing it up to 50 percent. We spent a lot of time going out 
and training our local unions. We spent a lot of time--I spent 
a lot of time jawboning them, convincing them that it is more 
important to be at the table, to bring their ideas, to fight 
the real battles, which is what kind of government are we going 
to have, what kind of an operation are we going to have, rather 
than thinking that we are going to continue to go like we have 
been doing regardless of the cost to the taxpayers because the 
taxpayers simply are not going to tolerate it.
    Senator Brownback. They have just about had it. And while 
balancing the budget is important, to me it is step one. Step 
two is starting to pay the debt down so I do not pass it on to 
my kids at the same height and nature that it is currently, or 
that we are getting in a position to be able to deal with the 
baby-boomer generation that you gentlemen are a part of, and 
that is going to stop working here before too awful long.
    Mr. Sturdivant. Thanks for that compliment, but I am not 
part of that generation. [Laughter.]
    Senator Brownback. We will make you an honorary member, if 
that will help out. But we are just not anywhere near a 
position as a government for this massive wave of people to 
start retiring. We are nowhere close, not even with the 
suggestions of what we are going to do on Medicare this time 
around or anything else. And then we have this mountain of 
debt, and we have these entitlement programs that are a 
demographic time bomb ready to go off in 15 years. We all know 
it. We all see it coming. And we are kind of twiddling our 
thumbs. That is why we have really got to work with you a lot 
in trying to get some of these things in a much better 
structure and make efficiencies everywhere we can go, 
entitlement programs and all.
    I appreciate your demeanor and your nature and your 
testimony about being willing to work with us.
    Mr. Sturdivant. AFGE has published a document called 
``Government That Works,'' and I need to get a copy to you, 
where it talks about some success stories where we have really 
saved the taxpayers money, where we have provided good customer 
service. Remember, when we talk about customers in the Federal 
Government, we are talking about taxpayers, people who pay our 
salaries.
    I need to get that over to you to read about some of the 
things that we are doing to improve quality, to improve 
effectiveness, and to improve efficiency in the Federal 
Government, because we know that unless we connect with the 
American people and unless we convince them that we are 
committed to providing good, effective, cost-conscious 
government services, then we are going to continue to have the 
anti-government, anti-Federal employee rhetoric. And we do not 
want that, but we know that in order to combat that, we have 
got to connect with the American people and convince them that 
we are doing a good job.
    One of the interesting things I would like to point out to 
you, Senator, is that Dalbar Financial Services did a study and 
it looked at American Express, looked at Southwest Airlines, 
looked at a lot of other companies that do phone service, and 
in the efficacy and quickness of answering the phone, the 
quality of the service, and everything else that would go into 
a successful business running an 800 number, do you know who 
came out No. 1? Social Security Administration. Federal 
employees.
    Senator Brownback. Good. Glad to hear that.
    Are there any changes that can be made in S. 314 that would 
improve the version enough that you and your union could 
support it, Mr. Sturdivant?
    Mr. Sturdivant. Well, off the top of my head, as I said 
before, we do not think that it is needed. But, obviously, if 
it is going to move, we would try to come forth with some 
recommendations to perfect it, and I believe those are in my 
written statement. I do not have them right off the top of my 
head. We would rather not see it, to be quite frank with you, 
but if it is going to be a fait accompli, then obviously we are 
going to try to come up and change it.
    One of the things is that it provides no provisions to 
lessen the impact on the workers who might be displaced.
    Senator Brownback. And that needs to be done. Any major 
business that has gone through this--and I do not know about 
what the governments have done--but any major business that has 
gone through that, has taken care of the people. At some point 
you say, look, you have been a valuable employee, but we just 
cannot do this anymore. But you do take care of the people 
because they have been a valuable employee and they have given 
their life trying to make the place better, trying to make the 
government operate. And I think we need to do those sorts of 
things.
    Is that the experience that the States have had, Mr. 
Stevens?
    Mr. Stevens. Very much so, yes.
    Senator Brownback. The other thing I would like to see is 
some sort of incentivizing in the system, not just all sticks 
but some carrots in that as well. I think as we learn a little 
bit and transition from the era of big government to what I 
think is going to be smaller, more focused, and I hope 
believe--a better government, we will discover that you have to 
do these things over a period of time. It is not this year--or 
tomorrow--that we are going to close this one down, or whether 
it is a transition over a 2- to 3-year time period or things 
like that, those are important. Was that the experience in some 
of the States, or did they go rapidly through these sorts of 
processes?
    Mr. Stevens. Most of them came in with the agenda of moving 
quite rapidly, and as Mr. Sturdivant said, in Indianapolis, it 
changed somewhat. They learned some things as they went along, 
and I think most of the others did, too.
    Senator Brownback. Is that better because of employee 
morale? Anytime you are going through these transitions, you 
are hurting your morale, generally, within the workforce.
    Mr. Stevens. That is part of it. It was certainly more 
rapid than the A-76 program has been at the Federal level. We 
have looked at some studies there that have dragged on for 6, 
8, and 10 years, and that is an extremely disruptive situation 
for agencies to be in. These governments worked much more 
quickly than that, and two of the keys to it were having a 
political leader in a position to make it a top priority and 
enforce that priority, and, second, having a structure, a 
commission, an agency, or an entity whose mission it was solely 
to implement the privatization initiative. Then if the agency's 
mission is to do that, you do not run into this bureaucratic 
question that came up earlier about individuals within the 
agency not being part of the old-boy network. If the whole 
agency is doing it, you are obviously not going to be 
ostracized for doing it yourself.
    Senator Brownback. So it actually works better by moving 
rapidly because you do not hurt your morale for as long a 
period of time?
    Mr. Stevens. Yes.
    Senator Brownback. I worry about that. I worry about it 
overall as we are going through this transition to a smaller, 
more focused, more limited government. If it hangs on too long, 
you just really beat down people because they do not have any 
certainty as to where things are going and where their job is, 
and then that just hurts you overall.
    Mr. Stevens. Absolutely. As soon as a study like that is 
announced, the good people that have alternatives often leave 
right away. The analytical work of doing these studies is 
something that the managers themselves are often not very 
studied in. They do not do it very often. They often do it as 
extra duties, and it can result in their jobs going away.
    Senator Brownback. Thank you. Been there, done that. I have 
been through those.
    I appreciate both of your testimony and your comments. I 
hope we can work with you closely as we move this forward. I 
would like to see it move forward. I would like to see it 
moving forward together as much as possible. Mr. Sturdivant, I 
understand your position on this, and you would not be 
representing the folks that you were elected to represent if 
you did not. But I would hope you would be willing to look at 
some of the things we tried to do with this to see if it makes 
it any better, or if it makes it worse, and that you be candid 
with us on that even though at the end of the day you may look 
differently at it.
    Mr. Sturdivant. Oh, we are going to keep an open mind. As 
we said, we talked to Senator Thomas earlier this year, and as 
I said, we still do not think that the legislation is needed, 
but we are prepared to try to work with you. If it is going to 
move, then we want to try to perfect it as much as possible so 
that it does no harm, not only to Federal workers but to the 
taxpayers and to the country. We think we have a responsibility 
there to participate in the process. It is easy to stand 
outside and complain and to throw rocks, but we think it takes 
a lot more leadership and responsibility to participate in the 
process and to try--that is how things work in this country--
and we are prepared to do that. We will be very forthcoming 
with you on suggestions and recommendations.
    I need to get that book over to you, ``Government That 
Works,'' because it tells a lot of success stories about how 
things have gone. We know things are moving slow, but you have 
to remember that there are a lot of Federal workers--people 
were in denial because they thought they had jobs for life; 
they thought they were going to have pension benefits. We think 
that folks are beyond that now. We think that people are 
starting to focus on the fact that--I believe that we are going 
to have a smaller government. I also believe that it is going 
to be a more dynamic government with the information age.
    Interestingly enough, one of the charges that have been 
made against our union is, of course, we want bigger government 
because that means more members. Even though government has 
shrunk, our membership has gone up. We are one of the unions in 
the AFL-CIO that is growing, and that is because we have taken 
a lot of techniques that we learned in dealing with making more 
effective and more efficient government operations, and we have 
brought them home. We have applied them in our union, and our 
union is growing.
    Senator Brownback. Good. Thank you both very much for 
attending, and thank you all for your attendance.
    We are adjourned.
    [Whereupon, at 1:13 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] TH171.001
    
    [GRAPHIC] [TIFF OMITTED] TH171.002
    
    [GRAPHIC] [TIFF OMITTED] TH171.003
    
    [GRAPHIC] [TIFF OMITTED] TH171.004
    
    [GRAPHIC] [TIFF OMITTED] TH171.005
    
    [GRAPHIC] [TIFF OMITTED] TH171.006
    
    [GRAPHIC] [TIFF OMITTED] TH171.007
    
    [GRAPHIC] [TIFF OMITTED] TH171.008
    
    [GRAPHIC] [TIFF OMITTED] TH171.009
    
    [GRAPHIC] [TIFF OMITTED] TH171.010
    
    [GRAPHIC] [TIFF OMITTED] TH171.011
    
    [GRAPHIC] [TIFF OMITTED] TH171.012
    
    [GRAPHIC] [TIFF OMITTED] TH171.013
    
    [GRAPHIC] [TIFF OMITTED] TH171.014
    
    [GRAPHIC] [TIFF OMITTED] TH171.015
    
    [GRAPHIC] [TIFF OMITTED] TH171.016
    
    [GRAPHIC] [TIFF OMITTED] TH171.017
    
    [GRAPHIC] [TIFF OMITTED] TH171.018
    
    [GRAPHIC] [TIFF OMITTED] TH171.019
    
    [GRAPHIC] [TIFF OMITTED] TH171.020
    
    [GRAPHIC] [TIFF OMITTED] TH171.021
    
    [GRAPHIC] [TIFF OMITTED] TH171.022
    
    [GRAPHIC] [TIFF OMITTED] TH171.023
    
    [GRAPHIC] [TIFF OMITTED] TH171.024
    
    [GRAPHIC] [TIFF OMITTED] TH171.025
    
    [GRAPHIC] [TIFF OMITTED] TH171.026
    
    [GRAPHIC] [TIFF OMITTED] TH171.027
    
    [GRAPHIC] [TIFF OMITTED] TH171.028
    
    [GRAPHIC] [TIFF OMITTED] TH171.029
    
    [GRAPHIC] [TIFF OMITTED] TH171.030
    
    [GRAPHIC] [TIFF OMITTED] TH171.031
    
    [GRAPHIC] [TIFF OMITTED] TH171.032
    
    [GRAPHIC] [TIFF OMITTED] TH171.033
    
    [GRAPHIC] [TIFF OMITTED] TH171.034
    
    [GRAPHIC] [TIFF OMITTED] TH171.035
    
    [GRAPHIC] [TIFF OMITTED] TH171.036
    
    [GRAPHIC] [TIFF OMITTED] TH171.037
    
    [GRAPHIC] [TIFF OMITTED] TH171.038
    
    [GRAPHIC] [TIFF OMITTED] TH171.039
    
    [GRAPHIC] [TIFF OMITTED] TH171.040
    
    [GRAPHIC] [TIFF OMITTED] TH171.041
    
    [GRAPHIC] [TIFF OMITTED] TH171.042
    
    [GRAPHIC] [TIFF OMITTED] TH171.043
    
    [GRAPHIC] [TIFF OMITTED] TH171.044
    
    [GRAPHIC] [TIFF OMITTED] TH171.045
    
    [GRAPHIC] [TIFF OMITTED] TH171.046
    
    [GRAPHIC] [TIFF OMITTED] TH171.047
    
    [GRAPHIC] [TIFF OMITTED] TH171.048
    
    [GRAPHIC] [TIFF OMITTED] TH171.049
    
    [GRAPHIC] [TIFF OMITTED] TH171.050
    
    [GRAPHIC] [TIFF OMITTED] TH171.051
    
    [GRAPHIC] [TIFF OMITTED] TH171.052
    
    [GRAPHIC] [TIFF OMITTED] TH171.053
    
    [GRAPHIC] [TIFF OMITTED] TH171.054
    
    [GRAPHIC] [TIFF OMITTED] TH171.055
    
    [GRAPHIC] [TIFF OMITTED] TH171.056
    
    [GRAPHIC] [TIFF OMITTED] TH171.057
    
    [GRAPHIC] [TIFF OMITTED] TH171.058
    
    [GRAPHIC] [TIFF OMITTED] TH171.059
    
    [GRAPHIC] [TIFF OMITTED] TH171.060
    
    [GRAPHIC] [TIFF OMITTED] TH171.061
    
    [GRAPHIC] [TIFF OMITTED] TH171.062
    
    [GRAPHIC] [TIFF OMITTED] TH171.063
    
    [GRAPHIC] [TIFF OMITTED] TH171.064
    
    [GRAPHIC] [TIFF OMITTED] TH171.065
    
    [GRAPHIC] [TIFF OMITTED] TH171.066
    
    [GRAPHIC] [TIFF OMITTED] TH171.067
    
    [GRAPHIC] [TIFF OMITTED] TH171.068
    
    [GRAPHIC] [TIFF OMITTED] TH171.069
    
    [GRAPHIC] [TIFF OMITTED] TH171.070
    
    [GRAPHIC] [TIFF OMITTED] TH171.071
    
    [GRAPHIC] [TIFF OMITTED] TH171.072
    
    [GRAPHIC] [TIFF OMITTED] TH171.073
    
    [GRAPHIC] [TIFF OMITTED] TH171.074
    
    [GRAPHIC] [TIFF OMITTED] TH171.075
    
    [GRAPHIC] [TIFF OMITTED] TH171.076
    
    [GRAPHIC] [TIFF OMITTED] TH171.077
    
    [GRAPHIC] [TIFF OMITTED] TH171.078
    
    [GRAPHIC] [TIFF OMITTED] TH171.079
    
    [GRAPHIC] [TIFF OMITTED] TH171.080
    
    [GRAPHIC] [TIFF OMITTED] TH171.081
    
    [GRAPHIC] [TIFF OMITTED] TH171.082
    
    [GRAPHIC] [TIFF OMITTED] TH171.083
    
    [GRAPHIC] [TIFF OMITTED] TH171.084
    
    [GRAPHIC] [TIFF OMITTED] TH171.085
    
    [GRAPHIC] [TIFF OMITTED] TH171.086
    
    [GRAPHIC] [TIFF OMITTED] TH171.087
    
    [GRAPHIC] [TIFF OMITTED] TH171.088
    
    [GRAPHIC] [TIFF OMITTED] TH171.089
    
    [GRAPHIC] [TIFF OMITTED] TH171.090
    
    [GRAPHIC] [TIFF OMITTED] TH171.091
    
    [GRAPHIC] [TIFF OMITTED] TH171.092
    
    [GRAPHIC] [TIFF OMITTED] TH171.093
    
    [GRAPHIC] [TIFF OMITTED] TH171.094
    
    [GRAPHIC] [TIFF OMITTED] TH171.095
    
    [GRAPHIC] [TIFF OMITTED] TH171.096
    
    [GRAPHIC] [TIFF OMITTED] TH171.097
    
    [GRAPHIC] [TIFF OMITTED] TH171.098
    
    [GRAPHIC] [TIFF OMITTED] TH171.099
    
    [GRAPHIC] [TIFF OMITTED] TH171.100
    
    [GRAPHIC] [TIFF OMITTED] TH171.101
    
    [GRAPHIC] [TIFF OMITTED] TH171.102
    
    [GRAPHIC] [TIFF OMITTED] TH171.103
    
    [GRAPHIC] [TIFF OMITTED] TH171.104
    
    [GRAPHIC] [TIFF OMITTED] TH171.105
    
    [GRAPHIC] [TIFF OMITTED] TH171.106
    
    [GRAPHIC] [TIFF OMITTED] TH171.107
    
    [GRAPHIC] [TIFF OMITTED] TH171.108
    
    [GRAPHIC] [TIFF OMITTED] TH171.109
    
    [GRAPHIC] [TIFF OMITTED] TH171.110
    
    [GRAPHIC] [TIFF OMITTED] TH171.111
    
    [GRAPHIC] [TIFF OMITTED] TH171.112
    
    [GRAPHIC] [TIFF OMITTED] TH171.113
    
    [GRAPHIC] [TIFF OMITTED] TH171.114
    
    [GRAPHIC] [TIFF OMITTED] TH171.115
    
    [GRAPHIC] [TIFF OMITTED] TH171.116
    
    [GRAPHIC] [TIFF OMITTED] TH171.117
    
    [GRAPHIC] [TIFF OMITTED] TH171.118
    
    [GRAPHIC] [TIFF OMITTED] TH171.119
    
    [GRAPHIC] [TIFF OMITTED] TH171.120
    
    [GRAPHIC] [TIFF OMITTED] TH171.121
    
    [GRAPHIC] [TIFF OMITTED] TH171.122
    
    [GRAPHIC] [TIFF OMITTED] TH171.123
    
    [GRAPHIC] [TIFF OMITTED] TH171.124
    
    [GRAPHIC] [TIFF OMITTED] TH171.125
    
    [GRAPHIC] [TIFF OMITTED] TH171.126
    
    [GRAPHIC] [TIFF OMITTED] TH171.127
    
    [GRAPHIC] [TIFF OMITTED] TH171.128
    
    [GRAPHIC] [TIFF OMITTED] TH171.129
    
    [GRAPHIC] [TIFF OMITTED] TH171.130
    
    [GRAPHIC] [TIFF OMITTED] TH171.131
    
    [GRAPHIC] [TIFF OMITTED] TH171.132
    
    [GRAPHIC] [TIFF OMITTED] TH171.133
    
    [GRAPHIC] [TIFF OMITTED] TH171.134
    
    [GRAPHIC] [TIFF OMITTED] TH171.135
    
    [GRAPHIC] [TIFF OMITTED] TH171.136
    
    [GRAPHIC] [TIFF OMITTED] TH171.137
    
    [GRAPHIC] [TIFF OMITTED] TH171.138
    
    [GRAPHIC] [TIFF OMITTED] TH171.139
    
    [GRAPHIC] [TIFF OMITTED] TH171.140
    
    [GRAPHIC] [TIFF OMITTED] TH171.141
    
    [GRAPHIC] [TIFF OMITTED] TH171.142
    
    [GRAPHIC] [TIFF OMITTED] TH171.143
    

                                  <all>
</pre></body></html>
